<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________

              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
                           DAVID HOBSON, Ohio

 RODNEY P. FRELINGHUYSEN, New Jersey  PETER J. VISCLOSKY, Indiana
 TOM LATHAM, Iowa                     CHET EDWARDS, Texas
 ZACH WAMP, Tennessee                 ED PASTOR, Arizona
 JO ANN EMERSON, Missouri             JAMES E. CLYBURN, South Carolina
 JOHN T. DOOLITTLE, California        MARION BERRY, Arkansas
 JOHN E. PETERSON, Pennsylvania
 MICHAEL K. SIMPSON, Idaho

 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Robert Schmidt, Kevin V. Cook, and Dennis F. Kern, Staff Assistants
                                ________


                                 PART 6
                          DEPARTMENT OF ENERGY
                                                                   Page
 Environmental Management and Commercial Waste Management.........    1
 Nuclear Waste Technical Review Board.............................  115
 National Nuclear Security Administration and Other Defense 
Activities........................................................  127
 Defense Nuclear Facilities Safety Board..........................  309

                                   S

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 92-741                     WASHINGTON : 2004



                       COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                    DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California               JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky               NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia               MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                    STENY H. HOYER, Maryland
 JAMES T. WALSH, New York              ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina     MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                 PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma       NITA M. LOWEY, New York
 HENRY BONILLA, Texas                  JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan             ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey   JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi          ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,            DAVID E. PRICE, North Carolina
Washington                             CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,            ROBERT E. ``BUD'' CRAMER, Jr.
California                             Alabama
 TODD TIAHRT, Kansas                   PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                  JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                      MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky             LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama           SAM FARR, California
 JO ANN EMERSON, Missouri              JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                    CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania        ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia        CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California         STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                  SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York             MARION BERRY, Arkansas
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida

                 James W. Dyer, Clerk and Staff Director

                                  (ii)



          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2004

                              ----------                              

                                          Thursday, March 20, 2003.

          ENVIRONMENTAL MANAGEMENT AND NUCLEAR WASTE DISPOSAL

                               WITNESSES

JESSIE H. ROBERSON, ASSISTANT SECRETARY FOR ENVIRONMENTAL MANAGEMENT, 
    U.S. DEPARTMENT OF ENERGY
DR. MARGARET CHU, DIRECTOR FOR OFFICE OF CIVILIAN RADIOACTIVE WASTE 
    MANAGEMENT, U.S. DEPARTMENT OF ENERGY

                            Opening Remarks

    Mr. Hobson. The hearing will come to order.
    The Subcommittee meets this morning to hear testimony from 
the Department of Energy on its budget request for Fiscal Year 
2004 for Environmental Management and for Nuclear Waste 
Disposal. I welcome Assistant Secretary Roberson and Dr. Chu 
here today and, without objection, your prepared statements 
will be entered into the hearing record.
    At our hearing with the Secretary of Energy earlier this 
month, I mentioned that I was very pleased with the efforts of 
Under Secretary Card and Assistant Secretary Roberson to 
streamline the cleanup of contaminated DOE sites. Just last 
Friday, I visited the Mound cleanup site at Miamisburg, Ohio, 
and I have to say that I am even more impressed to see 
firsthand what you all have accomplished. The 300-acre site has 
been performing a variety of atomic energy missions in 
Miamisburg since the 1940s, which is unbelievable to me that it 
was ever placed there to begin with. And come the year 2006, 
the DOE operation there will be closed completely, cleaned up, 
and the facilities and lands turned over to the local 
community.
    To all those communities surrounding DOE sites who want to 
protect the status quo and who fear a future without DOE, I 
tell them to take a close look at Miamisburg. The community has 
achieved over 90 percent occupancy of the facilities already 
transferred from DOE and is anxious to have the remainder 
turned over to them. Of course, the local community wants to 
get the best possible deal from the Federal Government before 
DOE leaves, and I expect every other community around a DOE 
site will try to do the same. But I trust that Assistant 
Secretary Roberson will treat these communities fairly and 
consistently and will leave these sites in a safe condition 
while at the same time protecting the taxpayers' interest. We 
may not do everything the local communities want, but I am 
confident that we will do the right thing.


                       yucca mountain respository


    I am not sure I have the same confidence that DOE will be 
able to fulfill its commitment to open the Yucca Mountain 
repository in the year 2010. It is not that Dr. Chu and her 
staff are not trying to do everything in their power to move 
the repository program forward. And it is not over any 
uncertainty that the country needs this repository, and it 
needs it now. To paraphrase the President's remarks from 
earlier this week, this is another situation where the price of 
inaction is far greater than the price of action.
    But a number of things need to happen to keep this program 
on schedule. First of all, the Administration needs to either 
request additional funding in FY 2003 or to amend the FY 2004 
budget request to meet the License Application milestone. 
Missing the License Application milestone or deferring other 
vital work such as transportation planning, are not acceptable 
alternatives to this Chairman of this committee. To address the 
long-term funding requirements of the program, the 
Administration needs to work harder to implement its proposed 
budget cap adjustment. So far, neither the House nor the Senate 
budget resolution incorporates this proposed change.
    I don't want to absolve Congress of its responsibility for 
these funding shortfalls, as we have been a large part of the 
problem. Congress has consistently underfunded this program 
over the past 20 years. And I certainly don't want my remarks 
here today to be misinterpreted by those who only seek to 
obstruct this repository. It will be built, and it is one of my 
top priorities as Chairman of this Subcommittee to keep this 
program on schedule. The Administration and some in the other 
body may not like where we find the funding in our bill for 
Yucca Mountain, but we will do everything we can to provide the 
funds necessary to keep this vital program moving forward.
    I want to tell you that my first visit, after visiting my 
home state area, will be to go to Yucca Mountain to take a look 
and see if we can't kick some things forward.
    With that, our ranking member is not here, but, Mr. 
Edwards, do you have any comments you would like to make?
    Mr. Edwards. Mr. Chairman, I just want to endorse your 
comments, and I know we have some votes coming up, so I look 
forward to the testimony. Thank you both for being here.
    Mr. Hobson. Mr. Simpson, you have anything to say at this 
time?
    Mr. Simpson. Go ahead.
    Mr. Hobson. Okay. I think what we will do is you can give 
your testimony. We are going to have a series of votes. We are 
probably going to have to indulge on your time, if you wouldn't 
mind waiting around, and we will let the Members--they will 
probably filter in after that, and we will get some questions.
    Before you start, I really was thrilled. I mean, I said to 
the newspaper--I don't know if you have seen the newspaper 
articles or not. But I said, you know, it is so refreshing to 
be a Government official and go to a Government site and not 
have people say, ``Gee, this thing is behind schedule. We just 
made a little mistake here and there is a cost overrun.'' That 
is most frequently what you hear.
    I went to this site. There is enthusiasm about what they 
are doing. The community is enthused. They are going to get it 
done sooner than they thought and at less cost. Isn't that a--I 
mean, that shouldn't be such an exciting thing to find out, but 
it is. And it is so refreshing. I must tell you, I came away 
absolutely excited about the possibilities for the future, 
excited about what you all have done. The people there really 
are motivated, and I think it is such a neat thing to have 
happen after, you know, so many years of, ``Oh, it is going to 
be forever.''
    So thank you for what you are all doing, and you may 
summarize your testimony, and when the votes come, we will have 
to leave and then come back, because the time is really only 15 
minutes now, so we have to get over there.
    Ms. Roberson. I am going to speak very fast, Mr. Chairman.
    Mr. Hobson. Thank you.


             fy 2004 environment management budget request


    Ms. Roberson. I could even speak fast and I could just say 
you have made a wonderful testimony for us, and that is our 
goal at each of our sites. That really is, and the job isn't 
done until you can go to any site in the EM program in this 
complex and receive the same kind of reception and the same 
kind of vision of what is happening at that site. That is our 
goal.
    I will be brief. Mr. Chairman and Members of the 
Subcommittee, I am pleased to be here today to discuss 
President Bush's Fiscal Year 2004 budget request for the 
Department of Energy's environmental cleanup program. Eighteen 
months ago, Energy Secretary Abraham directed me to review from 
top-to-bottom the environmental cleanup program and uncover 
those obstacles hindering the efficient and effective cleanup 
of our sites. As you may be aware, the top-to-bottom review 
report was published just a year ago,and in it, it concluded 
that EM had lost focus of its core mission, which was to remedy the 
legacy of the Cold War's impact on the environment. We had to take 
immediate action.
    With the top-to-bottom review as the blueprint for our 
transformation, we have aligned environmental cleanup focus 
from risk management to risk reduction and accelerated cleanup 
and closure. This was the intended mission for the 
environmental management program from the start. We have made 
remarkable progress this last year towards that goal and 
towards our goal of saving at least $50 billion over the life 
cycle costs of the program and completing the program by at 
least 35 years sooner than previously estimated.
    But we must not succumb to the idea that all problems are 
solved. The momentum we have gained must not be compromised or 
allowed to weaken. We have to stay the course. The actions and 
strategies we implemented, while producing key results, must be 
given the chance to further evolve, bringing even greater gains 
and risk reduction and cleanup.

                 IMPLEMENTATION OF ACQUISITION STRATEGY

    Underpinning these strategies are several ground-breaking 
reforms that will propel us forward in our thinking and in our 
actions. We are implementing a new acquisition strategy. We are 
aggressively using and managing the acquisition process as a 
key tool to drive contract performance and risk reduction 
results. We have established ten special project teams to carve 
new innovative paths for accelerated cleanup and risk 
reduction. Each team is formulating corporate-level initiatives 
and activity-specific actions to accelerate risk reduction 
further in a much improved, more cost-effective manner.
    We have implemented a strict configuration control system 
that baselines a number of key critical program elements. 
Robust change control and monitoring of these key elements will 
facilitate a high confidence level that the direction of the 
accelerated cleanup initiative is on course and that our 
objectives are being accomplished.
    The budget request before you is one of our most crucial 
reforms. This request, a cornerstone of our transformation, is 
a major step toward aligning performance with the resources 
needed to expedite risk reduction and cleanup. This budget 
request sets the foundation for budget planning and execution 
of the accelerated risk reduction and closure initiative.
    Today, the EM program is still very much a defense 
environmental liability, responsible for the disposition of 
many tons of special nuclear material, 88 million gallons of 
radioactive liquid waste, 2,500 metric tons of spent nuclear 
fuel, 135,000 cubic meters of transuranic waste, and well over 
1 million cubic meters of low-level waste. I ask the committee 
to stay with us as we continue our quest to eliminate risks 
posed by these materials at a pace few of us considered 
possible 2 years ago.

                       RISK REDUCTION IN CLEANUP

    New ideas and breakthroughs have grown from looking beyond 
the paradigm of risk management to a new focus of risk 
reduction. We are experiencing the realization that for the 
first time, the goal of completing the current cleanup is 
within our grasp. We are at a turning point in this program. In 
spite of the challenges--and there are challenges ahead. Those 
challenges, by the way, existed from the beginning of this 
program. We did not create them in our accelerated cleanup 
plan, but we are taking them on and our momentum is building.
    I ask for your support of our Fiscal Year 2004 budget 
request of $7.24 billion to assure our impetus does not 
diminish. The Administration considers this program vitally 
important. We stand at an important crossroads for the cleanup 
program today. I believe the cleanup of the former nuclear 
weapons complex is far too important a matter to be left to 
chance. With your past assistance, we have laid a solid 
foundation that is already showing signs of early success. 
Moving forward, we need your continued support to achieve 
success.
    Thank you.
    [The prepared statement of Jessie H. Roberson follows:]
   
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


    Mr. Hobson. Thank you.
    Dr. Chu.

 FY 2004 OFFICE OF CIVILIAN RADIOACTIVE WASTE MANAGEMENT BUDGET REQUEST

    Dr. Chu. Thank you. Mr. Chairman and other distinguished 
Members of the Committee, I appreciate the opportunity to 
appear before you today. I have a more detailed statement. With 
your permission, I will submit it for the hearing record.
    Exactly one year ago today, I had the privilege of becoming 
the fifth appointed Director of this office and the first 
Director since the President and the Congress, on a strong 
bipartisan vote in both chambers, approved Yucca Mountain as 
the site to be licensed and developed as the world's first 
repository for spent nuclear fuel and high-level waste.
    In assuming this Director's position at that critical time, 
I realized that I had four significant challenges: first, to 
transition the Federal and contractor organization from a focus 
on site investigation to an enterprise with a culture of 
nuclear safety essential to obtaining a license from the 
Nuclear Regulatory Commission, and successfully construct and 
operate a repository; second, to work with Congress in 
developing the means of assuring stable funding needed to meet 
the formidable schedule for the development of the repository; 
third, to create a safe and secure transportation 
infrastructure needed to move nuclear waste and spent fuel from 
over 100 locations across the Nation; and, last, to challenge 
our scientists and engineers to find new and creative ways to 
enhance the operational safety and certainty and reduce the 
life cycle costs of the program.
    The President's Fiscal Year 2004 Budget request reflects 
these changes I have implemented, and I appreciate the 
opportunity to present it to you today.

             YUCCA MOUNTAIN LICENSE APPLICATION CHALLENGES

    With the formal designation of Yucca Mountain, we prepared 
a detailed plan that will allow us to submit the license 
application by December 2004 and to begin placing waste in the 
licensed repository in 2010. Both the continuing resolution, 
however, and the reduction of $134 million, which is 22 percent 
of our requested budget, from our FY 2003 request will force us 
to reduce, eliminate, or defer some of the work we have 
planned, thus significantly increasing the risk of not meeting 
our program goals.
    The schedule is extremely tight and delay is very costly to 
our Government and, more importantly, the American taxpayers. 
For every year of delay beyond 2010, the cost of storing and 
handling defense waste alone is estimated to increase by $500 
million, and this figure does not include potential claims for 
damages resulting from the Government's failure to accept 
commercial spent nuclear fuel in 1998.
    In the President's Fiscal Year 2004 budget, we have 
requested $591 million for this program. As important, the 
Administration will propose, in discussion with Congress, a 
discretionary budget cap adjustment for the Yucca program as a 
provision to the Budget Enforcement Act reauthorization.
    Beyond Fiscal Year 2004, our program will need significant 
increased funding for the design, construction, and operation 
of the repository as well as the transportation infrastructure. 
This proposed cap adjustment will allow the Appropriations 
Committee to provide sufficient funding for the program's needs 
without adversely affecting other priorities. This will provide 
us with a greater certainty of funding and ensure the proper 
and cost-effective planning and acquisition of capital assets 
required for such a major capital project.
    I now would like to provide you with some highlights of our 
Fiscal Year 2004 request. We will focus most of these funds and 
efforts on completing and submitting a license application to 
the NRC and accelerating work on developing a national and 
Nevada transportation system. Let me briefly discuss these 
efforts.
    The repository development activity constitutes over 70 
percent of our funding request. The main focus will be on 
completing the technical products required for a license 
application. As part of the license application preparation, we 
will respond to key technical issues agreed upon between DOE 
and NRC, complete required elements of the design for waste 
package, surface and sub-surface facilities, complete pre-
closure safety analysis and post-closure performance assessment 
of the repository system.
    In addition, all of the documents from years of scientific 
studies to support the license application must be loaded into 
an electronic, Web-based licensing support network and be 
certified at least 6 months before the license application is 
submitted.
    As part of the repository development, I am also requesting 
$25 million for a new cost reduction and systems enhancement 
program. This program is focused on improving existing 
technologies and developing new ones to achieve efficiencies 
and savings and to increase our confidence in the long-term 
performance of the repository.

                         TRANSPORTATION ISSUES

    Funding of this program will play a key role in our current 
effort both to achieve near-term cost savings and to reduce the 
total system life cycle cost.
    For the transportation activities, we are requesting $73 
million. We will begin the initial procurement of the cask 
fleet and place orders for long lead time casks and equipment. 
Additionally, we will prepare for acquisition of transportation 
and logistics services and assess other needs. Requested 
funding also supports greater interactions and dialogues with 
regional, State, and local organizations to address the 
important transportation issues such as emergency response.
    Of the $73 million requested in the transportation program, 
about a quarter will be used to examine the development of a 
Nevada rail line to the repository. If a decision is made to 
pursue rail transportation, the Department must carefully 
analyze the environmental impacts of constructing a rail line 
within a particular corridor. Pending the outcome of this 
process, we will begin conceptual design activities, conduct 
field surveys, and pursue obtaining a right-of-way for the rail 
corridor. We will also continue to assess the viability of 
other transportation modes.
    These are the highlights of the Fiscal Year 2004 budget 
request for my office. In conclusion, our program is a key 
element of the Department's and the Administration's efforts to 
advance energy and national security, contribute to homeland 
security, and honor our environmental commitments. We now have 
the unique and historic opportunity of moving far closer to 
solving the nuclear waste problem by beginning in less than 8 
years to move waste underground into the world's first licensed 
geologic repository. I urge your support for our budget 
request, and I look forward to working with you on this vital 
national issue.
    I would be pleased to take any questions that the Committee 
may have. Thank you.
    [The prepared statement of Dr. Margaret Chu follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT



                         RAIL CORRIDOR CONCERN

    Mr. Hobson. I am going to go to my ranking member, but 
first I want to make a little one- or two-sentence statement.
    I want to get this rail corridor done, but I don't want to 
put it anywhere close to Las Vegas. Even if Las Vegas is 
cheaper, in my opinion--and I am going to stay around long 
enough hopefully to make sure we don't--I don't think it is 
prudent, I don't think it is smart business to put it near Las 
Vegas. And I will oppose--and I hope the Committee will join me 
in opposing--putting this near a population center like that. 
And I want to send that message to people early on. And I hope 
the Committee agrees with that.
    Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman.
    Dr. Chu, I notice that you graduated from Purdue 
University.
    Dr. Chu. My undergrad, yes.
    Mr. Visclosky. Why didn't you stay in Indiana? [Laughter.]
    Dr. Chu. I should have, huh?
    Mr. Visclosky. Yes.
    Dr. Chu. Because my boyfriend went to Minnesota. 
[Laughter.]

                RECOMPETITION OF ENVIRONMENTAL CONTRACTS

    Mr. Visclosky. I will let you slide. My dad was born in 
Minnesota.
    On environmental management, Madam Secretary, I am very 
concerned about the issue of competition, and I know you had 
management reforms last year as far as trying to accelerate the 
cleanups. Under those changes, how many of the existing 
contracts were recompeted and how many were modified?
    Ms. Roberson. Okay. Sir, we have completed an evaluation of 
every one of our contracts, and we evaluated the right set of 
performance incentives included in those. Did we have the right 
structure to carry that out?
    Over the past year, we have competed three scopes of work: 
our salt waste processing at Savannah River; River Corridor at 
the Hanford site; and the Mound cleanup in Ohio. We propose to 
extend one contract--that was the West Valley contract--for a 
2-year period. For obvious reasons, a 2-year period, the 
competition could likely extend longer than the amount of time 
to complete the work, and we thought the contract was 
performing satisfactorily, although we did modify the 
incentives to make sure that there were strict cost and 
schedule incentives in that contract.
    The Oak Ridge contract, which had a built-in option for a 
conversion to closure, we are working with the contractor to 
see if we can come to agreement on specific cost and schedule 
incentives in that contract that would kick in that option.
    We have not extended any other contracts. We do have other 
contracts that we will be competing, but we have no public 
statements on those, but we have a number that we will be 
competing.
    We have other contracts where we have modified the 
incentives, either the contracts expire in 2005 or 2006. The 
clarity of the expectations and the alignment with the PMPs 
needed to be incorporated in this time frame, and so we have 
modified a number, but we have not extended the dates on those.

             INSPECTOR GENERAL REPORTS ON CLEANUP CONCERNS

    Mr. Visclosky. We have also had a number of Inspector 
General reports during the last year, and if I could just cite 
a couple of these: In April of 2002, there was a report in the 
2,100 metric tons of spent fuel at Hanford and suggested that 
the Department may not meet any of the required milestones. In 
May, there was a report on Rocky Flats indicating that less 
than half of the 1,900 containers for shipment of plutonium 
would be produced by the target date, adding a cost of 
potentially $6 million a month. A June 2002 report said that 
despite spending $2.8 billion so far on the Fernald site, the 
Department has not requested adequate funds to ensure closure 
by 2006 and that there will be a 3-year slippage.
    I understand obviously that the changes as far as these 
incentives are relatively new and the reports were issued last 
year. What is the situation as far as these particular sites 
and moving things along here?
    Ms. Roberson. Okay. Well, we are focusing on resolving 
issue by issue, and we have plenty of them. We have recently 
completed a final adjustment to the Fernald contract that 
brings about what I believe is an absolute confidence in the 
fact that they are motivated to complete by 2006 and that the 
contract is aligned with that. It comes to an absolute closure 
point in that time period.
    Mr. Visclosky. Do you think you have adequate funds to 
ensure completion by 2006?
    Ms. Roberson. Yes, I do.
    Mr. Visclosky. On Fernald.
    Ms. Roberson. Absolutely. We have been working for it over 
the year. A new baseline was developed for that site. We have 
done our negotiating back and forth. I do have a great deal of 
confidence. We are going to complete that project, and I would 
say----
    Mr. Hobson. I am going to be there.
    Ms. Roberson. When the Chairman goes there, if he doesn't 
receive the same reception that he received at Mound, then I 
will be going there right after him, because I think there is 
no reason that it shouldn't occur.
    At Hanford and Rocky, the two issues--you know, and I 
don't--I will never say we have resolved every issue because 
every issue isn't resolved until the work is completed. The 
site--would you like for me to hold there?
    Mr. Hobson. If you would, because we have only got 9 
minutes, and I don't want anybody to miss the vote.
    Ms. Roberson. Okay.
    Mr. Hobson. We will just stand at ease for a few minutes 
and then come back.
    Ms. Roberson. Okay.
    Mr. Hobson. Thank you.
    Dr. Chu. Thank you.
    [Recess.]
    Mr. Simpson [presiding]. The hearing will be back in order.
    Mr. Visclosky.
    Mr. Visclosky. Yes, I think we were talking about the----
    Ms. Roberson. IG reports.
    Mr. Visclosky. Right.
    Ms. Roberson. Yes, okay. Fernald I think we had discussed. 
The two other reports that you cited, one was spent fuel 
removal from basins at Hanford and special nuclear material 
packaging at Rocky Flats.
    In those two circumstances, we have special purpose 
engineered systems for removal and packaging. Those systems do 
indeed require a lot of care to maintain them operating to 
complete those campaigns. I am pleased to say in each case we 
are ahead of schedule. The IG, in regards to spent fuel at 
Hanford, said that we weren't going to make any of our 
milestones. Well, we did miss one milestone by one week.But I 
think that is a long way away from where we were 2 years ago, and, 
quite frankly, I am pretty pleased with our progress.
    Mr. Visclosky. I am fine for now, Mr. Chairman. Thanks.

                   SCIENCE AND TECHNOLOGY REDUCTIONS

    Mr. Simpson. First, let me say how much I appreciate 
working with you over the last year. Even though we have 
sometimes mild disagreements, you have always handled them in a 
very professional manner, and sometimes when you have been 
willing to listen to me and also stick to your guns, and I 
appreciate that very much. I know you have been very helpful to 
my staff, and I know you are handling a difficult job in a very 
professional manner, and I appreciate that very much.
    Secretary Roberson, as you know, the EM science and 
technology account has seen a dramatic reduction in funding 
from 2002 to 2004. In fact, the account has gone from roughly 
$262 million in 2002 to $64 million in the fiscal year 2004 
request.
    I believe there is still a great need for the science work 
funded in this account to the support of the cleanup of sites 
like Idaho. Do you believe the DOE now has access to all of the 
technologies that it will need to clean up sites like Idaho or 
Hanford? If not, do you believe the dramatic reduction in 
science and technology account will hinder your ability to 
develop new technologies to address these cleanup sites?
    Ms. Roberson. Well, sir, I think that we have many of the 
technologies, that we have invested over the last 10 years and 
developed certain technologies we need. But in two specific 
areas additional technology needs exist and that is in 
groundwater monitoring, treatment, and characterization. We are 
working with the Office of Science as you know, to ensure that 
the Science Office and its environmental management leg of that 
organization can help us to continue to develop the needed 
technologies, primarily because they have the competency and 
the capability, and they also have the ability to maximize the 
use of those assets because they are not just looking at the 
environmental management sites.
    We clearly have some technology needs. In the environmental 
management program, we are really focusing on deploying some of 
the technologies that we have invested in over the last 10 
years, and working with the Office of Science to identify 
research and development needs for the future.

                TECHNOLOGY DEVELOPMENT PROJECTS IN IDAHO

    Mr. Simpson. I believe that in Idaho they have a lot of the 
expertise in developing these technologies that might assist in 
the cleanup. In fact, Idaho is the lead environmental 
management laboratory, and there doesn't seem to be any of the 
single science projects that they have been working on that are 
planned for funding for fiscal year 2004. Is that correct?
    Ms. Roberson. I don't know that I can say that. I would 
like to--in the technology deployment program in EM, there 
clearly are projects at Idaho: groundwater specifically, I 
can't recall what else. But we clearly have projects that we 
will be deploying and testing technologies out. I can't speak 
to the R&D part of it. I don't know that offhand, but I would 
be glad to get back to you. I have to confirm with Science.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


                  SPENT NUCLEAR FUEL PROGRAM TRANSFER

    Mr. Simpson. I appreciate that.
    This is a question, I guess, for either one of you. It is 
my understanding, Secretary Roberson, that you would like the 
Yucca Mountain program to take ownership of the national spent 
nuclear fuel program. Should Congress transfer this program to 
your office? And if so, have you given any thought to how much 
money we should provide in fiscal year 2004 to make sure that 
DOE spent nuclear fuel and high-level waste have a path forward 
in Yucca Mountain?
    Dr. Chu. Do you want me to----
    Ms. Roberson. Why don't you, since----
    Dr. Chu. Okay. [Laughter.]
    Dr. Chu. I believe the role of the national spent fuel 
program is very important, and I support this continuing 
mission. Jessie and I have discussed the possibility of 
transferring that program from EM to RW, and, frankly, we have 
not analyzed the situation in detail: what is the funding 
level, what are the activities, should there be a slight change 
in the scope. Jessie and I have agreed we are going to continue 
discussion in this area. Hopefully we will come to some 
conclusion.
    Jessie, do you want to----
    Ms. Roberson. The one thing that I would add is that 
Margaret and I have developed a very close working 
relationship. We actually live in the same end of the building 
on the same floor. I don't even go to the bathroom without 
passing her office. And so we have learned to work very closely 
together, and whether the program remains with EM or it moves 
to RW I think is really immaterial in the working relationship 
we have developed.
    Mr. Simpson. Will there be or do you know if there will be 
additional funding requests or needs in order to transfer, 
should that occur?
    Ms. Roberson. I don't believe we have any in the near term. 
I think we are watching the progress on the license, and any 
change in the funding for that would be a result of the needs 
identified coming from that process.

        ADVANCED MIXED WASTE TREATMENT PROGRAM READINESS REVIEW

    Mr. Simpson. Okay. Secretary Roberson, the advanced mixed 
waste treatment project in Idaho has completed construction and 
is now undergoing its readiness review. What is the status of 
that readiness review, and can you assure me that the project 
will remain on schedule?
    Ms. Roberson. The readiness review, actually this week we 
have a small team out doing a review of a portion of that 
readiness review. The readiness review is to be completed at 
the end of this month. I am assured we are going to be able to 
accomplish that. Really, the next big step for that project, 
because it isn't done until they can start processing waste--to 
become certified to ship waste to WIPP. And that is, quite 
frankly, more in the hands of the contractor responsible for 
that project than for us. I think they understand the 
importance of it. The way the contract is set up, they don't 
make money until they process waste through it. So I think they 
are motivated. But I would leave it to them to demonstrate how 
motivated they are.
    Mr. Simpson. That would certainly motivate me.
    Ms. Roberson. Yes.

                  ACCELERATED CLEANUP PROGRAM FUNDING

    Mr. Simpson. Secretary Roberson, the accelerated cleanup 
program agreed to by DOE and the various States assumes stable 
funding. However, I hear that OMB's support for the accelerated 
cleanup program may decline in fiscal year 2006. Can you assure 
me and my colleagues and the Governors across the country that 
DOE will request levels or increased funding for accelerated 
cleanup in fiscal year 2006? Specifically, I believe the State 
of Idaho officials have been told in order to achieve the 
accelerated cleanup goals negotiated with DOE, the INEEL budget 
will increase in fiscal year 2006 when Rocky Flats is closed. 
Is that the case?
    Ms. Roberson. I can't say that I understand that to be the 
case right now. The expected funding needed to fulfill the 
accelerated cleanup plan for this program does indeed decrease 
in 2006--2006 to 2008. That is because we are supposed to 
complete work, and at each site the funding is associated with 
completing activities. So I can't tell you right now what the 
specific funding profile for Idaho is, but I can assure you it 
is based upon the commitments to complete work in certain 
years. And I do believe that there is a decrease in 2006 at 
Idaho because certain things are supposed to be done at that 
point. But I can follow up with you with more details.
    Mr. Simpson. I appreciate that.
    Ms. Roberson. Okay.
    [The information follows:]
GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

             ALTERNATIVES FOR INCINERATION FOR MIXED WASTE

    Mr. Simpson. One other question. Secretary Richardson 
convened a blue-ribbon panel to propose alternatives to 
incineration for mixed waste at INEEL. I don't see any funding 
in the budget request for the alternatives suggested by the 
blue-ribbon panel, so how do you propose to remove this waste 
from the State of Idaho?
    Ms. Roberson. Actually, this is another area of technology 
deployment. We work with the State to identify four candidate 
technologies that we will issue an RFP for demonstration on. We 
believe the blue-ribbon panel did indeed fulfill its 
commitments in identifying candidate technologies. We have 
evaluated that. We have worked with our regulators to narrow 
those candidates down, and during this fiscal year we expect to 
be choosing one or two to go the next step with.

  IDAHO NATIONAL ENVIRONMENTAL AND ENGINEERING LABORATORY SUPPORT ON 
                         LICENSING APPLICATION

    Mr. Simpson. Okay. Dr. Chu, when Under Secretary Card was 
before this Subcommittee last week, I asked him about the 
Department's intentions on the national spent fuel program and 
the INEEL's cooperation with Yucca Mountain, and Mr. Card 
indicated in his answer to me that he believed the cooperation 
between the INEEL and Yucca Mountain would be growing in the 
future. Can you tell me how the INEEL is supporting the Yucca 
Mountain licensing application effort and how you see that role 
going in the future?
    Dr. Chu. Okay. Right now the INEEL is supporting our 
program primarily in the repository design and license 
application areas, and currently we have approximately $5 
million funding to INEEL. Our current plan is another $5 
million for 2004. INEEL represents a very important national 
resource with the unique capability, especially in the 
engineering capabilities. I believe that capability would 
become increasingly important for our program as we move 
through the licensing phase into design and construction. And 
we do intend to leverage that resource.
    Mr. Simpson. I appreciate that. One last question, if I 
could.
    Mr. Hobson [presiding]. You are over five, but go ahead, 
real quick.
    Mr. Simpson. It is a quick one.

               CALCINE WASTE ACCEPTANCE AT YUCCA MOUNTAIN

    Director Chu, the DOE is proposing to send high-level 
calcine waste from the INEEL to Yucca Mountain by putting it in 
a high-integrity container with some grout or cement. Do you 
believe that the Yucca Mountain waste acceptance criteria will 
allow calcine waste to be placed in the repository without 
treatment?
    Dr. Chu. Our current Yucca Mountain waste acceptance 
criteria does not provide for untreated calcine waste. So it 
will not be included in our initial license application which 
we plan to submit in December of 2004. However, our Department 
is currently studying this issue, and there is a process to 
amend the license application, and in the future, these and 
other ways, need to be looked at whether it is acceptable waste 
or not.
    As a licensee, our responsibility is to demonstrate to NRC 
that all waste disposed at Yucca meets the regulatory 
requirements. And Jessie and I have formed, like she said, very 
close working relations. We are working in realtime every month 
on an integrated way. I want to know what she is planning, and 
she knows she is not generating something that won't be 
accepted by Yucca Mountain. So I am hoping to work with her 
closely to resolve all these issues.
    Mr. Simpson. I appreciate that.
    Thank you, Mr. Chairman. I thought I had an extra five 
minutes when I started down here. [Laughter.]

               SAFETY OF NUCLEAR STORAGE WITHIN THE U.S.

    Mr. Hobson. Mr. Edwards.
    Mr. Edwards. Thank you, Mr. Chairman.
    Again, thank you both for being here and for what you do. 
Could I ask either you, Secretary Roberson, or you, Dr. Chu, 
whoever is interested in answering this, while we are 
developing the Yucca site, does the Department of Energy have 
direct responsibility for overseeing the safety, especially in 
this environment of potential terrorism, the safety of nuclear 
storage at our nuclear facilities or other facilities around 
the United States?
    Dr. Chu. I believe that is the responsibility of the NRC to 
oversee that.
    Mr. Edwards. Okay. So you have no responsibility for that 
part of it. Okay. Very good.
    Mr. Chairman, the other questions that I have, I will 
submit in writing. I would like to defer back to you and the 
other Members of the Committee. Thank you.

        YUCCA MOUNTAIN TRANSPORTATION ROUTES RECORD OF DECISION

    Mr. Hobson. Thank you, Mr. Edwards.
    I am going to ask a few questions here, and we will submit 
some for the record, too. I am going to go back to something I 
stated before because I wasn't sure we were going to get back 
to it, but I want to talk about this a little bit.
    The Committee is convinced that the Department could defuse 
much of the opposition in Nevada if it would select a 
transportation route that clearly avoids the Las Vegas 
metropolitan area. Why is the Department waiting so long to 
make this critical decision? Either or both.
    Dr. Chu. I think it is my question.
    Mr. Hobson. It is either, I think. If you don't want to do 
it, you do it. [Laughter.]
    Dr. Chu. Mr. Chairman, thank you very much for your comment 
and input on the rail situation and----
    Mr. Hobson. Well, let me ask, do you favor rail over truck 
transportation in Nevada? And if so, why? Answer both of those 
at the same time.
    Dr. Chu. In our environmental impact statement from last 
year, our Department had done detailed analysis of 
transportation modes, and then we came to the conclusion that 
we prefer mostly the rail transportation mode. But we have not 
made a final decision on the record of decision. What we would 
like to do is work with the State and local government and make 
sure we consider all of their concerns as we go forward. And we 
are doing a lot of planning internally, and when it comes to 
decision time, we will definitely fold in a lot of comments 
such as yours into our decision.
    Mr. Hobson. Well, my problem is that the longer you defer 
this, the more political it has the potential of becoming, and 
that people get locked into things that they don't need to get 
locked into. And I think if the people of Las Vegas knew, had 
less fear about this coming through their town or near their 
town, I think you could take away a lot of the mistrust and 
fear that is there. So I would like to see you move up that 
decision.
    I understand the cheapest rail corridor is the one called 
the Valley modified corridor that runs from north Las Vegas and 
generally follows along the Route 95 corridor to the repository 
site. I really want you to know that this Committee does not 
support any route through that area, which I have said three 
times now. But I want to know, do you need any Congressional 
direction on this issue, or will the Department have the good 
judgment not to recommend that route, even if it is the 
cheapest?
    You don't have to take that one on right now, but I am 
trying to tell you, in the nicest way as I can, don't go there.
    Dr. Chu. Sir, I very much appreciate your input.
    Mr. Hobson. And I also think that the best route is through 
the Air Force base, and we are going to try to work to do that 
because cost-wise it is better, safety-wise for you it is 
better, and it is a secure area for you to move through. And I 
think we need to get the Government together to do that.
    I hope you know what we are thinking after this point.
    Dr. Chu. Thank you.
    Mr. Hobson. Where in the Department is the Record of 
Decision for the repository transportation system? How long has 
the ROD been there awaiting approval or release? And when will 
the Department formally issue the Record of Decision?
    Dr. Chu. Mr. Chairman, like I said, we are still evaluating 
these options and----
    Mr. Hobson. You sound like the Corps of Engineers to me all 
of a sudden. [Laughter.]
    Dr. Chu. And this is part of planning, and so I do not have 
a definitive timing. We will let you know as soon as we make 
that decision.
    Mr. Hobson. You can rest assured I am going to keep asking, 
and you need to go back and talk to whoever you have to talk to 
about this and say, you know. Congress, I think, is interested 
in, much of the Congress, most of the Congress is interested in 
moving forward. There may be some people that are not, but I 
think we have got to get on with this, and the longer you take 
the more problems it could have, and frankly, the more 
expensive it is going to be.

             FY 2004 FUNDING SHORTFALLS FOR YUCCA MOUNTAIN

    The Department submitted an amended request for fiscal year 
2003 of $590 million and asked for the same amount again in 
2004. The Conference Report for fiscal year 2003 provided you 
with only $457 million, so you already start out short by $134 
million. If you cannot get this funding restored, what would be 
the impact on the schedule to submit the license application to 
the NRC in late 2004 and to begin a repository operation for 
2010. You kind of touched on that problem.
    Dr. Chu. Thank you, Mr. Chairman.
    There are two elements to this question. The first five 
months during the continuing resolution, we have to defer some 
of the important activities that we planned, especially in the 
repository design areas. And then when the appropriate 2003 
funding level fell short by 22 percent, we were faced with a 
question can we continue to defer some of those activities? 
Apparently, no. Then the question is, how do we do the trade 
off between all the activities we want to perform and still 
keep a viable program? We are very actively doing the impact 
analysis right now, so I do not have a definitive answer of 
what the impacts are, whether it is going to impact our 
December 2004 license application submittal date. However, I 
can say that I feel that this program is at high risk right 
now, because my duty as the Director of the program is to 
ensure that we can submit not only a license application but 
also a high quality license application based on the best 
science and engineering.
    Mr. Hobson. Well, you need to either get into a 
supplemental or talk to somebody to get this back on track, and 
right now there is a train leaving the station. I do not know 
whether you have talked to OMB and whether your leadership has 
talked to them. I think this is critical, because it is going 
to impede the whole process down the road, and it is going to 
cost us a lot more money, and I think somebody over--I do not 
know whether it is politics. I do not know whether it is OMB. I 
do not know whether it is you guys, but here we are again, in 
my opinion, not making the appropriate decisions or allowing 
you to make the appropriate decisions because of a lack of 
funding.
    And I can tell you, I just went through a hearing. I have 
to remember what status I was in. I just went through a 
hearing, it was open. But I asked a question about buying 
airplanes, and one of our problems is our procurement process 
forces our equipment to be longer and more expensive, and 
United Arab Emirates is coming in and buying a better F-16 than 
we are able to produce for ourselves, and providing all the 
money to do all the upgrades and all the studies. I mean other 
than it looks like an F-16, it is not like the ones we are 
doing for ourselves. It is far more advanced because they have 
a lot better procurement process when they do it. And they 
funded it. When they say, ``Here is $20 billion,'' you know you 
are going to get the $20 billion, and it goes forward. We do 
not do that. It is one of the things that we have to look at 
our process here, because our process here is costing us, and 
will cost us in the future, and people will look back and say, 
``Why did they do that?'' And that is actually what is 
happening in some of our military. I do not want it to happen 
here any more, so I hope your leadership and you all are 
saying, ``Can we get on this train for a little bit?'' Not that 
much money. To me it is a lot of money personally, but by the 
way we do these things, it is not that much money. But to me it 
is very critical to the future of this program, and the program 
is going to happen. The problem is it is going to be much more 
costly if we do not get this license done, so I urge you to do 
whatever you have to do to get on the train and steer so that 
we do not miss these dates.
    Dr. Chu. Thank you very much. I very much appreciate your 
support, and I will take your advice and work on this.
    Mr. Hobson. I am going to ask one more question, then we 
are going to--do you have any questions, Mr. Pastor.
    Mr. Pastor. Yes.

                STATUS OF ACCELERATED CLEANUP AGREEMENTS

    Mr. Hobson. Okay. Let me just do this last one. The 
Department has invested a lot of political capital, not to 
mention a lot of appropriated funding in the new strategy, 
which I very much appreciate, on the cleanup of contaminated 
sites. However, this strategy is contingent on reaching 
agreement with the local communities and with Federal and State 
regulators, and the new acceleration approach makes more sense 
than the old way of doing business. Please tell us which sites 
have not yet agreed with the new acceleration approach, and 
summarize their certificate status, because we hear a little 
rumbling out there that not everybody is being cooperative in 
signing up at some of the local places, and again, we want to 
send some messages to folks, the old game is over; there is a 
new game in town that we need to work on.
    Ms. Roberson. Mr. Chairman, we have, I am pleased to say, a 
limited number of issues, and as I stated in my opening 
statement, we recognize we are going to have challenges that we 
are going to have to continue to work on throughout the conduct 
of this program, and until an activity is done, it is not done, 
and we are going to have issues.
    Specifically, we do not have an accelerated cleanup 
agreement regarding the Paducah site. We are in negotiations. 
We are on a fairly, I believe, good path. I am confident that 
within the next 30 days, actually where EPA is working with us 
and we are on a pretty tight schedule there, that we will be 
able to accomplish that goal at the Paducah site.
    Two other locations where we need to validate the 
accelerated cleanup strategies, and that is the Los Alamos and 
Sandia sites. As we were in the process of working with our 
regulators on the developmental review about performance 
management plans, there were compliance orders issued in the 
state, and they are near the issuance of the compliance order, 
and actually I am going to be visiting with regulators in New 
Mexico the first week in April to ensure that those support the 
PMP, and we think that we will be able to accomplish that.
    We certainly have independent issues. We have some 
milestone changes that we still have to work with the State of 
South Carolina on. I am watching, in each of our states, all 
the regulatory issues, and I can tell you exactly what that 
list is, but it would bore you silly, because I actually know 
what our milestone commitments are in each state.
    Mr. Hobson. You do not have to do it now, but it may not, 
because I want to come back and----
    Ms. Roberson. I would be glad to do so.
    Mr. Hobson. But is it correct that the sites which do not 
agree to accelerated cleanup will effectively move to the back 
of the line in terms of priority for receiving cleanup funding?
    Ms. Roberson. The way the program was designed is there is 
a baseline program, which is keep the operation safe, and that 
is the Department's commitment. If we do not have an 
accelerated program, we will continue to fund the baseline 
program, but the additional funding that actually pulls the 
work forward requires regulatory support.
    Mr. Hobson. Thank you.
    Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman.
    Good morning. And before I start, let me compliment the 
Department of Energy. This is one of the rare occasions, rare 
occasions where we have people of diversity testifying, and I 
congratulate them because it needs to be noted, and welcome 
this morning.

                     MOAB CLEANUP DECISION OPTIONS

    I am going to take you to one of your other favorite sites, 
one that is really important for those of us who live along the 
Colorado River. And it has gotten more interest, because as you 
know, we have Californians and Arizonans and Mexicans and 
Nevada, all are concerned about the Moab site. Now, in the last 
couple years, the output from the site has really begun to 
peak, and I think you have seen that by last year's 
appropriation. I think you were appropriate about $4 million to 
begin addressing the issues of the site, and in the bill that 
they wanted you to come back with an informed decision by 2004.
    And the problem has been, as I know it, that the National 
Academy of Sciences, in reviewing the proposal, have said that 
you need more data to come back with a better decision, and I 
think that most of the preliminary decisions, or decisions have 
rested on a cover up of the site. And some of us think that 
maybe there may be a better solution than just capping the 
sites. As you work on achieving an informed decision or the 
environmental impact statement, have you considered the 
proposition that some have made, that possibly removing the 
tailings completely and taking them I think to St. George, and 
having them milled where there is a site that can mill such a 
waste, that this would not only solve the problem of the 
tailings leeching into the Colorado River, but actually would 
remove the radioactive material, waste material, and have it 
milled so basically you would have a large part of it being 
inert and used for other purposes?
    Ms. Roberson. Well, sir, we are looking at a host of 
options, and I would say we have not predecided capping. I do 
not know today if our draft EIS is out, but we have certainly 
conducted public meetings, we have talked about the options to 
be captured in that, which is on schedule to be completed in 
2004.
    We are looking at removal to a host of locations in the 
general area that has experience and capability to handle those 
tailings. So we are looking at options. I cannot say that we 
are looking at an option to actually mill it. We are looking at 
disposal options at facilities that have the capability for 
that.
    Mr. Pastor. I think the milling end of it would be to--I 
guess our responsibility would basically get it from the Moab 
site into a milling site, and the cost of removal and all that 
could be mitigated if milling was allowed and I guess whatever 
results from milling can be used for economic purposes, but 
that mitigates some of the cost of removal from Moab, and 
making a larger amount inert, and what other benefits you get 
from it, I do not know. But there are people that probably know 
that better than I do.
    The only question is that $2 million. So we went from about 
900,000 to 4 million and now back to 2 million. So what is that 
going to do to your program and your desire of dealing with 
this site in Utah?
    Ms. Roberson. The decision, the forward-looking decision 
would be made in 2004. The additional funding that Congress 
provided this fiscal year should be adequate, should just about 
be adequate for completing the environmental impact statement 
process, as well as allows us to accelerate our groundwater 
data collection in response to the NAS. So we do believe we 
have requested adequate funding, and then the actual decision, 
which we do not have yet, we certainly could not ask for 
funding until we have that decision. We can estimate the cost.
    Mr. Pastor. So it would be $4 million this year, 2003, and 
then the request for 2 million, you think that allows you 
enough resources?
    Ms. Roberson. Right. And in addition to that, we have also 
implemented mitigation activities to ensure that there is no 
further contamination while that environmental impact 
assessment is occurring.
    Mr. Pastor. And I think to date no one has shown that there 
is contamination but it is a future risk, a potential risk that 
we are trying to address.
    Ms. Roberson. That is exactly right.
    Mr. Pastor. Well, if you need some help, let us know, 
because I think Congress, at least this Subcommittee, has shown 
that its concern about this site by the level of funding that 
you have gotten in the 2003, and I am assuming the level of 
funding that you will get in 2004, because the risk of 
contamination and the harm it may do to millions of people 
along the Colorado River, it is a very serious threat, and we 
want to work with you to solve this problem.
    Ms. Roberson. Thank you.
    Mr. Pastor. And thank you.
    Mr. Hobson. Thank you, Mr. Pastor.
    Mr. Visclosky.

                    LINE ITEM CONSTRUCTION PROJECTS

    Mr. Visclosky. Thank you, Mr. Chairman.
    Madam Secretary, on construction projects, in your 
statement you say that the Department is looking to limit the 
inclusion of line item construction projects as activities for 
separate authorization and funding. Could you explain that 
decision and what you hope to gain, and what types of projects, 
and what size? Because I am very apprehensive about that 
decision.
    Ms. Roberson. Okay. In our proposed budget structure, what 
we actually propose is reporting and monitoring on the large 
majority of the funding that goes to the environmental cleanup 
program. In our view, the environmental cleanup program itself 
is a project that requires the Administration, and Congress, 
the visibility, to focus on the accomplishment of certain 
results. We still do have some construction line item projects 
that will be reported. What we looked at were construction line 
item projects that were interim activities. For instance, one 
example would be the construction of a waste removal on a tank, 
and there are tank farms either at Savannah River or Hanford. 
We think the project reporting should be focused on how much 
liquid is actually removed and in what time frame, and that the 
methodology for removing it should have the flexibility to 
apply innovation and lessons learned from site to site. And 
accelerating the program, it really shortens the amount of time 
for planning construction line item projects out.
    Mr. Visclosky. What would the cost of that project be 
specifically, about, a couple million, couple billion?
    Ms. Roberson. For constructing a waste removal on one tank 
is really what we were monitoring. I do not know. Maybe a 
couple million, 5 million, and we do as many of those as we 
have tanks. In this change we are not proposing not having the 
visibility of the work getting done. What we are proposing 
though is to focus in on the actual work that gets done, rather 
than interim steps of constructing a frame on top of a tank, at 
what pace, and how much liquid gets removed from the tank, 
because that is the thing that reduces the risk to the 
environment.
    Mr. Visclosky. You mentioned some will still be reported.
    Ms. Roberson. Right.
    Mr. Visclosky. ``Some'' would imply to me less than half.
    Ms. Roberson. Well, I do not know if it is less than half. 
I know the vitrification plant at Hanford certainly remains. 
That is a huge project.
    Mr. Visclosky. That is 4.5?
    Ms. Roberson. Yes, that is the biggie. Glass waste storage 
facility at Savannah River, the depleted uranium facilities at 
Portsmouth and Paducah, I do not recall.
    Mr. Visclosky. On this I would defer to the Chairman's 
position, but I think for us to make a decision, given our 
responsibility as far as oversight, and particularly on 
construction projects, if we could have a side by side, 
comparing what is not in this year for construction purposes as 
opposed to what would have been had you not made the change, I 
think that would be very helpful to us to make a determination 
as to whether or not we would be agreeable to it.
    Ms. Roberson. I think we can do that. I think we have 
probably done that for staff, and we would be glad to provide 
it.
    [The information follows:]

                        FY 2003 LINE ITEM CONSTRUCTION PROJECTS REQUESTING ELIMINATION OF LINE ITEM CONTROL IN THE FY 2004 BUDGET
                                                                  [Dollars in millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
           Project Title/Location                    Former Project Number                  FY 2004 Request                  Total Estimated Cost
--------------------------------------------------------------------------------------------------------------------------------------------------------
Initial Tank Retrieval Systems Hanford......                            94-D-407                               $17.0                              $237.1
Tank Farm Restoration and Safe Operations,                              97-D-402                                31.0                               217.0
 Hanford....................................
High Level Waste Removal from Filled Waste                              93-D-187                                12.6                               353.0
 Tanks, Savannah River......................
--------------------------------------------------------------------------------------------------------------------------------------------------------
* FY 2004 is final year of funding requested for the project.

            YUCCA MOUNTAIN TRANSPORTATION ROUTES AND FUNDING

    Mr. Visclosky. That would be terrific.
    On transportation, I have a series of questions on that, 
and I would be brief. But I represent a district where if you 
want to get around the largest body of fresh water on the 
planet earth, you have to drive through my district. And every 
rail line and every major interstate going around the Great 
Lakes goes through the First Congressional District of Indiana. 
And on a very regular basis, those who might have questions 
about Yucca certainly excite people as far as the dangers in 
nuclear explosions that will be regularly takingplace in the 
First Congressional District once transportation starts.
    And my question would be, as far as your 2004 funding, are 
you funded to make sure that the transportation component of 
Yucca would be on track for an opening at 2010, or are we short 
in 2004?
    Dr. Chu. This is part of the analysis I am doing right now. 
With the 2003 shortfall, how does that effect Fiscal Year 2004? 
The transportation program has been--we would like to use the 
words ``has been'' in a coma for years because the higher 
historical funding shortfall situation, and then our plan, 
starting from 2003, will really start gearing up the 
transportation program so we can catch up and make the 2010. 
And in our plan----
    Mr. Visclosky. But you have a shortfall in 2003 then as 
well?
    Dr. Chu. We have a shortfall in 2003, yes.
    Mr. Visclosky. And how much is that shortfall in 2003?
    Dr. Chu. The whole shortfall is $134 million which is 22 
percent. This does not represent the whole amount for 
transportation, but it is still significant.
    Mr. Visclosky. That would be a subset of the 134?
    Dr. Chu. Right, it is a subset of that, yes.
    As one of the critical elements we would like to do is not 
only select corridors or routes, but also prepare to purchase 
casks. Because of the variety of waste that will be coming into 
Yucca, there is a whole spectrum of casks needs. Some of them 
we already have. Some of them we do not. So when you talk about 
a brand new design, from the beginning to the end it takes 
probably five to six years to get the right cask to be 
certified and get ready. Even for an existing cask that has 
been certified, it takes about two years. So it takes a lot of 
planning to make sure all the logistics, everything is lined 
up. Then on top of it you have to get all the equipment 
serviced. You have to decide how to maintain your equipment, 
and then the transportation fleet--the operations, the drivers, 
the operators, and tracking system. So in conclusion, we have a 
lot of work remaining, but a big part is working with each 
State and the local governments, and make sure they are part of 
the whole planning. So I take your question very seriously. 
Then as part of our planning, we are working very aggressively 
on that. And with the current funding situation it gets more 
and more difficult.
    Mr. Visclosky. And I think it is an important component, 
because obviously you have to be governed by a factual 
situation, by the science involved, but there clearly is a 
political issue, multiple political issues here. And for those 
who support the repository, a decision has been made. It 
becomes more difficult as people agitate, and people will 
continue to attempt to do that. But to the extent then State 
and local officials cannot come back and say, Listen, we have 
been contacted, and let us assure you because we can tell you 
how safe this is going to be, and this is also temporary, what 
the process is going to be. So I think it is an important 
element, even though physically it may not be sited within the 
State of Nevada.
    Dr. Chu. Another thing I want to add is in the past years 
the Department has had cooperative agreements with a lot of the 
State agencies, and we have been funding a variety of 
cooperative agreements with many, many states and regional 
organizations too, and we will continue to work in that aspect. 
Then what we plan to do is follow the WIPP model, which is to 
spend a lot of time and energy working with all the States and 
local governments. Apparently it is a very successful model, 
and that is going to be a model we will be using for Yucca.
    Mr. Visclosky. I do attach a lot of importance, and as the 
Chairman pointed out, there will be a supplemental, and we 
certainly encourage you to work from your end to make sure that 
there is a request.
    Dr. Chu. Thank you for your support.
    Mr. Hobson. I believe Mr. Simpson has one question.
    Mr. Simpson. I have two quick ones. I lied to you.
    Mr. Hobson. They multiplied. [Laughter.]
    Mr. Simpson. I apologize.
    Mr. Hobson. I know, guys, they multiply.

                      SHIPPING CASKS CERTIFICATION

    Mr. Simpson. I do not know how to take that.
    Dr. Chu, you mentioned that it takes five to six years to 
design and certain a new shipping cask. We currently ship 
nuclear waste, spent nuclear fuel all over the country, in 
fact, all over the world. Why in the world does it take so long 
to design a new cask, a new shipping cask? That seems bizarre 
to me.
    Dr. Chu. Because it needs to be certified by NRC, so you 
have to go through a whole process on design, and then on the 
quality control, and then you have to test them. You have to be 
certified.
    Mr. Hobson. Can you tell me how the French do it? 
[Laughter.]
    Mr. Simpson. Put it in bottles of wine.
    Mr. Hobson. Because they move this stuff around, do they 
not? Do they not have casks?
    Dr. Chu. Yes, but I am not sure how long it takes the 
French to do it. Let me put it this way, once it gets 
certified, every two to three months you can crank out more, so 
it is the initial. But for casks that have already been 
certified, when you manufacture from fabrication to certify a 
whole bunch more, it still takes two years. So five to six 
years is brand new design. That is what I am talking about.
    Mr. Simpson. That just seems incredible to me in terms of--
well, I guess it does not. It is kind of a governmental 
obligation.
    Mr. Hobson. If the gentleman is finished, we are having a 
little trouble with this on the technology. Pete, you want to?
    Mr. Visclosky. I missed that. I am happy you brought that 
up. Are there new requirements with the new casks? I had not 
even thought about that aspect of it.
    Dr. Chu. No, they are not new requirements. Every waste has 
special requirements. Some of the waste coming will be coming 
from Jessie's environmental program. They have special 
requirements of the size and so on, that has never been 
manufactured before.
    Mr. Visclosky. Which would not necessarily be the ones that 
Mr. Simpson is alluding to, so there would be a change?
    Dr. Chu. Right. So it depends. You know, some of the things 
from Idaho, it is a different story. So this is a site specific 
situation, and then that is part of our assessment right now, 
and to assess across the country what are the needed casks, 
when we should do what so we can start receiving them in a 
logical and the most cost effective and most efficient manner.
    Mr. Simpson. This is starting to sound like the $700 toilet 
seat. And I had hoped that we--this is taxpayer money that we 
are spending. It just seems strange to me, and not being a 
scientist in the area, that there are not casks that are 
available that have been certified, that could be modified and 
that type of thing that could actually function.
    Dr. Chu. There are some that are available. I do want to 
mention that.
    Mr. Pastor. Would you yield?
    Mr. Hobson. Would the gentleman yield? Mr. Pastor would 
like to ask something.
    Mr. Simpson. Sure.

               INTERNATIONAL SHIPPING CASKS AVAILABILITY

    Mr. Pastor. Right now the Japanese are shipping spent fuel 
from Japan to Britain and France, and I think there is other 
countries that are shipping these over many miles. Is that the 
highest quality of radioactive material that you would find 
being shipped around the United States?
    Dr. Chu. NRC has a specific requirement to certify in the 
U.S. for U.S. shipments, which I believe are not the same as 
the international.
    Mr. Pastor. Do you think an America company could, even 
under these days and times, look at the containers that are 
being used to ship radioactive spent fuel across the Pacific 
Ocean and into France, into England, that maybe that might be 
something that we could use in this country? How many times do 
we have to----
    Mr. Hobson. Build a new widget.
    Dr. Chu. Understand, yes, appreciate your comment.
    Mr. Pastor. What is your response? Let me ask that 
question?
    Dr. Chu. Well, I think a lot of the cask manufacturers, 
actually they do make casks for U.S. as well as for 
international demands, so they are totally aware of what is 
going on on a global scale, so yes, they are part of this whole 
cask manufacturer world.
    Mr. Pastor. But the casks have been moving across the 
Pacific for at least 10 years, probably closer to 15 years.
    Dr. Chu. Right.
    Mr. Pastor. So you would think by now we would get it or do 
it.
    Dr. Chu. Thank you for your comment. There are different 
casks that we need. There are certain types of casks, in 
existence, that are available, and so we do have the capability 
to use them. But there is only a fraction of the other needs. 
So we still have to get ready for all these other types of 
casks which are very specific in our situation. Some come from 
EM's needs. Some from certain commercial sites. They have 
specific needs. So we have to consider all of the needs.
    I would say to Mr. Simpson, to answer your question too, we 
are fully aware there are certain types of casks that are 
available, but it is not all we need, so we still have to get 
ready for the rest of the needs which are actually quite a bit, 
quite a bit of demand in that.

         INTERNATIONAL STANDARDS FOR SHIPPING NUCLEAR MATERIALS

    Mr. Simpson. Is there an international standard for 
shipping requirements? In other words, if Japan ships waste or 
certain nuclear fuel to England, could that standard be 
different than what is required in the United States?
    Dr. Chu. I think they are not exactly the same. They are 
probably similar, but I know there are differences. Maybe, 
Jessie, you could?
    Ms. Roberson. No. I would say there are differences. For 
instance, any that we receive in this country has to be 
packaged according to our requirements, which are not 
necessarily the same in other countries.
    Mr. Simpson. It would be nice to have an international 
standard since we have the wastes of 41 other countries here, 
and I am sure it is going all over the rest of the world and 
between countries.

                LEGAL OBLIGATIONS FOR CLEANUP AGREEMENTS

    My last question. Secretary Roberson, does the fiscal year 
2004 budget request enable the Department to meet all of its 
legal obligations under existing agreements, court settlements, 
and regulatory orders and agreements, and if not, could you 
tell us which specific areas will not be in compliance and the 
legal and financial consequences of noncompliance?
    Ms. Roberson. Mr. Simpson, I believe it does enable us to 
meet all of our legal agreements.
    Mr. Simpson. Thank you.
    Mr. Hobson. Mr. Visclosky.

                        DUAL USE SHIPPING CASKS

    Mr. Visclosky. Thank you, Mr. Chairman.
    If I could return to the casks for a second. My impression 
would be for some of the EM sites you would have very discrete, 
unique needs. But you also have a lot of spent fuel canisters 
at various civilian sites around the country. And as I 
understand it, utilities have been forced to develop dry 
storage facilities, and in the public interest has taken into 
consideration the compatibility and adaptability of various 
canister technologies. The use of compatible systems would 
benefit all stakeholders and assistants who reduce cost, 
minimize risk and efficiency, but as I understand it, the 
Office of Civilian Radioactive Waste Management continues to be 
open to discussion about using utility-owned systems, and the 
Department continues to be noncommittal. Do you intend to 
accept the spent fuel in existing casks?
    Dr. Chu. Some of the storage casks, are dual use casks. 
That means they work for both storage and transportation. If 
they satisfy the NRC requirements as a transportation cask, 
yes, we will take them.
    NRC cask certification program requires every five years 
you need to recertify. So we have to continuously update all of 
this information as a whole.
    Mr. Visclosky. So for the dual or multi-purpose casks we 
will be okay.
    Dr. Chu. I believe so, yes. If I am incorrect, I will 
correct it later for you.
    Mr. Visclosky. Is that primarily the type of casks that are 
used in the civilian sector, or are there variances there too?
    Dr. Chu. I would take that question for the record because 
I am not sure of the answer.
    [The information follows:]

                             Dual Use Casks

    For the record, let me correct my previous statement. The 
Department's position is that multi-assembly systems are not covered by 
the contract between the Department and the utilities, and are thus not 
considered an acceptable waste form, absent a modification to the 
disposal contract. The Department believes that some benefits may 
accrue to the overall waste management system by the use of such multi-
purpose storage/transport/disposal systems. The Department has stated 
its willingness to initiate the appropriate actions to include such 
systems under the terms of the disposal contract. The Department 
believes the best approach is to pursue an overall modification to the 
disposal contract, which would involve several issues, including 
acceptance of multi-assembly canister systems. Unfortunately, due to 
ongoing litigation between the parties to the disposal contract, the 
Department is limited in what it can presently do.

    Mr. Visclosky. And my assumption from the discussion we 
have had today, is if it is not dual use, there is a more 
substantive question as far as the permitting then. Okay.
    Dr. Chu. Okay.
    Mr. Visclosky. Thank you.

                     CLEANUP TECHNOLOGY DEPLOYMENT

    Mr. Hobson. Do you share the cleanup technology or have any 
conversations with DOD on the kinds of things that they are 
getting rid of and how they may get rid of them versus how you 
get rid of them, so that you all are doing it in the most cost 
effective manner and you are not tripping over each other, when 
there is a technology they have that maybe you are not using, 
or you have a technology that they are not using? Is there any 
program like that going on?
    Ms. Roberson. Actually, there is. In addition to 
managerially sharing ideas, looking even at contracting 
strategies and the technology in our technology development and 
deployment arena, usually many of those initiatives are 
cosponsored with DOE and DOD as the normal partners.
    Mr. Hobson. Is Dr. Fiore involved in that?
    Ms. Roberson. I do not know if that is under Mario Fiore 
specifically. Usually we work with, well, my counterpart 
obviously is Mr. Woodley, that is usually who I work with, or 
the Corps of Engineers. I do not know if that function falls 
under Mario Fiore.
    Mr. Hobson. Do you know him?
    Ms. Roberson. Very well, very well.
    Mr. Hobson. I am just concerned about that because there is 
something else here--not in your area--that I find that four or 
five different people are looking at, and I am not sure they 
are all communicating, and I want to be sure that we do, 
because I use to follow that. I am on Defense, and when I was 
MilCon Chairman, we got into some of this stuff too. So I am 
just concerned that we all have a dialogue, where we are 
getting the best and lessons learned from each of us.
    Ms. Roberson. I think the technology area is one that is 
pretty exemplary. I mean there are actually technologies that 
we have plans to deploy that DOE made no investment in. I mean 
we actually have a very active dialogue with DOD when it comes 
to environmental technologies.
    Mr. Hobson. Well, does anybody else have any questions to 
ask? Let me say this to you. First of all, I am, as I said in 
the beginning, I am really pleased and thrilled to see the 
attitude change on the things, and let me tell you, you two are 
a great team. I would not want to run up against you guys out 
there if I were on the other side. You are good. You are a 
credit to this country. We appreciate everything you are doing. 
We want to help you. We do not want to be your adversary, and I 
hope you do not look at this committee as your adversary. We 
are here to get this stuff done. I think we have the same goals 
and objectives, and I will not be this nice if it does not 
work, and if you see me in other committees you know we can be 
very exacting. But I want to say when people do the right thing 
and are trying to do the right thing, how much we appreciate 
it. And we need to say that to you because there is a 
difference in attitude out there, and I think I share the whole 
committee's attitude when I say thank you on behalf of this 
committee and this country for what you two are doing.
    Dr. Chu. Mr. Chairman, thank you very much, and I want to 
say this from the bottom of my heart, it is support such as 
this that keeps us going. Thank you.
    Ms. Roberson. Absolutely. Thank you.
    Mr. Hobson. The hearing is adjourned.
    [The questions and answers prepared for the record follow:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
                                         Wednesday, March 19, 2003.

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                                WITNESS

LINTON F. BROOKS, ACTING UNDER SECRETARY OF ENERGY AND ADMINISTRATOR 
    FOR NATIONAL SECURITY, NATIONAL NUCLEAR SECURITY ADMINISTRATION
    Mr. Hobson. The Committee will come to order.
    Pursuant to the vote of this Subcommittee on March 5th, 
2003, today's hearing on the Department of Energy atomic energy 
defense activities will be held in executive session. 
Ambassador Brooks, can you verify that everyone in the room has 
appropriate security clearance?
    Ambassador Brooks. Everyone from NNSA and the Department of 
Energy, yes, sir.
    Mr. Hobson. For the Members of the Subcommittee and any 
staff attending, I would like to remind you that some of the 
information discussed today will be classified and should not 
be discussed outside this room.
    I would also ask that you turn off all cell phones, which I 
hope I did.
    Unless Mr. Visclosky has any opening remarks, we can 
proceed to the Ambassador's statement. We're getting a little 
late start.
    You may proceed.
    Ambassador Brooks. Thank you.
    I want to start by thanking the Subcommittee for its strong 
support in the past.
    I have a detailed written statement which I would like to 
submit for the record and summarize now if I may, sir.

                             NNSA MISSIONS

    We have, as you know, several complementary missions. We 
provide a safe, secure and reliable deterrent; implement the 
Nuclear Posture Review; reduce the threat posed by 
profileration of weapons of mass destruction. We take care of 
security at our own facilities, we are reinvesting in the 
nuclear weapons infrastructure, we are supporting the nuclear 
propulsion needs of the U.S. Navy, and support the President's 
management agenda and move toward more effective and efficient 
government.

                          NNSA BUDGET REQUEST

    Our Fiscal year 2004 budget request to do all those is $8.8 
billion. This is a growth of about 11 percent over the enacted 
2003 budget and is consistent with the planned outyear funding 
in our Future-Years Nuclear Security Program. As I will mention 
later, we are pleased that we are starting to get a more 
predictable and stable program to present you.

                         STOCKPILE STEWARDSHIP

    In weapons activities, we are requesting $6.4 billion for 
stockpile stewardship. I am pleased that we are continuing to 
be able to certify the safety, security and reliability of 
nuclear weapons without underground nuclear testing. 
Usingengineering and scientific tools and laboratory tests, we are 
getting a better technical understanding of the stockpile each year, 
but the challenge of certifying becomes more difficult each year we get 
farther away from nuclear testing. New tools that this budget will 
support should allow us to continue our certification efforts with 
confidence. Although I want to emphasize I have no reason to doubt our 
current ability to ensure the safety, security and reliability of the 
nuclear weapons, we have to maintain our ability to carry out a weapons 
test in the event some unforeseen problems arise that cannot be 
resolved by other means.

                         NUCLEAR TEST READINESS

    Last year, we concluded as part of the Nuclear Posture 
Review that we should improve our readiness posture from the 
current ability to test within 24 to 36 months to an ability to 
test within about 18 months. Both the 2003 and 2004 budgets 
support this effort. The transition will take about 3 years.

                           ADVANCED CONCEPTS

    Last year's Nuclear Posture Review also highlighted the 
importance of pursuing advanced concepts work to make sure that 
we are ready for whatever challenges may come in the future.
    This budget requests $21 million for advanced concepts. $15 
million of it is for a study on what is called the Robust 
Nuclear Earth Penetrator. That study, pursuant to congressional 
direction, will begin 30 days after you receive a report from 
the Department of Defense, which to my understanding was 
transmitted this morning; and it will look at whether or not, 
without resorting to nuclear testing, we can modify two 
existing warheads and harden them so that they can penetrate 
into the earth.
    I want to stress that this is a study and that our advanced 
concepts work is just that, advanced concepts. We have no 
requirement to actually develop any new nuclear weapons at this 
time.

                        STOCKPILE LIFE EXTENSION

    We are extending the life of several existing weapons 
through the Life Extension Program. That program is going well. 
We are more than three quarters through the extension of the 
W87, one of the ICBM's warheads; and we should complete it by 
early 2004. We will be delivering the first of the life 
extended weapons for the W76, W80 and B61 in 2007 and 2006.
    We have also been working to put certain capabilities back 
into place. One is the ability to produce tritium. Late this 
year we will start tritium production when we put tritium 
producing burnable absorber rods into a TVA reactor. We have 
readjusted the requirements.
    Mr. Hobson. I have got some tritium barrels at, I think, in 
Dayton that I could deliver to you if you need them. We are 
trying to get rid of them some place.
    Ambassador Brooks. Your support as always is welcome, Mr. 
Chairman.
    What we are going to do with this capability is we are 
going to make sure we actually have it.
    Mr. Hobson. It may be thorium and not tritium.
    Ambassador Brooks. Ah. I am less enthused about that, sir.
    We are going to adjust the outyear production once we are 
sure we can manufacture tritium to only manufacture it, 
obviously, as required by the stockpile.
    The committee is aware that our Tritium Extraction Facility 
(TEF) in South Carolina has experienced cost and schedule 
problems. We have approved a change that increases the cost 
from $401 to $506 million and delays the project from mid 2006 
to late 2007. I can discuss in the questions some of the 
reasons for that, but we are confident that the problems are 
behind us and that these revised milestones are ones that we 
will be able to deliver on.

                           PIT MANUFACTURING

    Another capability that we are looking at reinstituting is 
the ability to manufacture new pits for nuclear weapons. We 
have never done this without nuclear testing, so I am very 
pleased that we are on schedule to produce later this spring 
the first certifiable pit that we have made in the United 
States since Rocky Flats closed in 1989; and Los Alamos will 
make an actual war reserve pit by 2007.
    Over the long run, however, we can't depend on a national 
laboratory to manufacture pits. So the budget supports the 
early stages of developing a so-called Modern Pit 
Facility,which will not actually be in place until late in the next 
decade, but during this year we will work on the environmental analysis 
and conduct the site selection.

                             INFRASTRUCTURE

    The President's Nuclear Posture Review gave emphasis to 
infrastructure, equal billing with emphasis to weapons 
themselves. That is consistent with the idea that we need to be 
able to sustain our much smaller deterrent over the long haul.
    We have two complementary accounts. We have Readiness in 
Technical Base and Facilities, which is our enduring account 
that will last forever. Then we have a Facilities and 
Infrastructure Recapitalization Program, which is a get-well 
program that some time in about 10 years should vanish. The 
get-well program is stabilizing the backlog of deferred 
maintenance and helping to restore the complex to health for 
the long-term.
    These efforts are absolutely crucial, and I urge the 
committee to support them.
    Let me turn to nonproliferation. We are requesting $1.34 
billion for defense nuclear nonproliferation. With two 
exceptions our request is essentially the same as last year and 
is covered in detail in my written statement.
    Last year, at the President's request, Secretary Abraham 
sought Russian agreement to find a way to dispose of additional 
weapons materials. We are nearing agreement on purchasing 
Russian highly enrich uranium for U.S. research reactors and on 
purchasing uranium that originates in Russian weapons for a 
strategic uranium reserve. That is one of the new things in the 
program. There is $30 million requested for that.
    The biggest increase between 2003 and 2004, however, is 
related to disposing of weapons grade plutonium. As you know, 
we and the Russians have both agreed--each agreed to dispose of 
34 metric tons of weapons grade plutonium, enough for about 
8,500 nuclear weapons, by irradiating it as a mixed oxide fuel 
in existing nuclear reactors.
    Mr. Hobson. Ambassador, do you know yet where you are going 
to stockpile all that stuff, the stuff you are buying from the 
Russians?
    Ambassador Brooks. No. I think I know, but I haven't 
settled on it. I think that it is--it will be at an existing 
facility, and the most obvious place would be Y-12, but we 
haven't made that a firm decision yet.
    The Russian program has had its share of problems. The 
Russians have decided to use the U.S. design for their 
fabrication facility, which should allow their program to 
continue; and I expect both facilities will start construction 
some time during fiscal year 2004.
    Although it doesn't involve a change in our budget request, 
I also want to highlight one other nonproliferation program. 
Last year, I assumed responsibility for eliminating Russian 
plutonium production. There are three Russian reactors that now 
produce weapon plutonium. They also produce heat and light for 
the adjacent region. So what we have agreed to do is construct 
fossil fuel plants so that the reactors can be shut down in 
total.
    This committee raised questions last year, correct 
questions, on our management approach. As a result of those 
concerns, we are revising our plans. Previously, we had been 
using a national laboratory as an integrating contractor, 
essentially. We will shortly select competitively from among a 
number of prequalified firms through the Department of Defense 
an integrating contractor that has both extensive experience in 
fossil fuel power plants and extensive experience in Russia.
    Turning to naval reactors, we are requesting $768 million 
for the Naval Reactors Program, which continues to be a prime 
example of how one should manage unforgiving and complex 
technology. Naval Reactors Program, as this subcommittee knows 
well, supports nuclear-powered submarines and carriers on 
station around the world. That is obviously of particular 
relevance as we sit here today.
    In 2004, naval reactors will support 103 reactors and 82 
nuclear-powered warships, including the first of a new class 
when the USS VIRGINIA goes to sea.
    Naval reactors will also continue to design and develop the 
reactor for the transformational carrier CVN-21. The requested 
budget increase will allow the beginning of development of the 
transformational technology core which will use advanced 
materials to achieve a substantial increase in core energy, 
resulting in greater operational ability and flexibility.
    The budget increase will also allow maintenance and 
replacements of some of the program's 50-year-old 
infrastructure as well as environmental remediation at sites no 
longer in use, continuing the naval reactor's ``clean-as-you-
go'' policy.
    Key to ensuring the health and safety of all of these 
activities is safeguards and security. The focus is on 
protecting people, information, materials and infrastructure.
    Immediately after the terrorist attacks in September of 
2001, my predecessor initiated an increase in our security 
posture. I am very comfortable as we sit on the brink of war 
with the security of the complex. But most of that increase was 
in physical protection, basically, more guards; and, as we look 
to the future, physical protection will become more complicated 
and more costly. So the budget we have submitted to you would 
initiate a modest research and development effort to begin to 
use technology more effectively to maintain and improve 
security while reducing guard force staffing and overtime.

                           FEDERAL WORKFORCE

    Finally, the budget requests $348 million for the Federal 
workforce in headquarters and in the field. That is what 
provides corporate direction and oversight. Naval reactors and 
our secure transportation assets are separately funded in other 
program direction accounts. Our budget request reflects 
declining staffing levels, but it also reflects about $16 
million for reengineering and relocation associated with the 
new organization which I will talk about in a minute.

                         MANAGEMENT CHALLENGES

    Let me conclude by talking about some of the management 
challenges and successes that the National Nuclear Security 
Administration is facing. The most obvious challenge has been 
the ongoing problems at Los Alamos National Laboratory, which 
this subcommittee discussed with the Secretary of Energy. As 
you recall, there are three areas--specific areas of concern: 
improper use of credit cards, potentially fraudulent use of 
purchase orders, and poor accountability of government 
property. But the specifics indicate, in our view, significant 
broad weaknesses in the management of business practices.
    As soon as we learned of this last year, Secretary Abraham 
and I insisted that the University of California, which manages 
Los Alamos for the Department, take prompt corrective action. 
The University has replaced the laboratory director, his 
principal deputy and replaced or demoted 15 other individuals. 
The University has permanently subordinated the auditing 
function to the University to make sure the internal auditor is 
completely independent and has temporarily subordinated 
business services to the University. The University has also 
brought in outside firms to conduct detailed audits and has 
made a number of changes in the internal procedures in the 
laboratory. I am generally satisfied with the corrective action 
taken to date and with the actions of the interim lab director.
    The Secretary has tasked the Deputy Secretary and me to 
conduct a review of the future relationship between the 
laboratory and the University, and we are to complete that by 
the end of April. In addition, we are compiling a series of 
``lessons learned'' to make sure that other DOE facilities 
don't fall into the same trap.
    On a more optimistic note, I think we are making good 
progress in meeting the intent of the Congress when the 
National Nuclear Security Administration was created. In 
December of last year, I implemented the revised management 
approach which we reported to Congress last year. It eliminates 
a layer of management, shifts the focus of Federal oversight to 
the site managers, and consolidates business and administrative 
support functions into a single service center; and, along with 
other management reforms, these changes, which we will have 
implemented by the end of fiscal year 2004, willresult in a 20 
percent reduction in areas excluding naval reactors, nonproliferation 
and emergency operations.

                     PRESIDENT'S MANAGEMENT AGENDA

    We are particularly mindful, and Secretary Abraham I think 
stressed this when he was before you, of the importance of the 
President's Management Agenda; and we are fully committed to 
that. One area in which we have been implementing it is an 
emphasis on a new planning, programming, budgeting and 
evaluation process. What we are trying to do is work with the 
long view, budgeting with a firm 5-year resource envelope, 
managing program and budget direction with more discipline. 
This has been common for the Department of Defense; and we have 
modeled our efforts after them, although we have adapted them 
to our needs. It has not been common outside the Department of 
Defense. Although it will take several budget cycles, I am 
pleased with our progress to date.
    I am also pleased with the result of our participation in 
the Administration's Performance Assessment Rating Tool (PART). 
This year, the Office of Management and Budget evaluated four 
programs that encompass about 20 percent of our total funding. 
Two of them, the Advanced Strategic Computing Initiative and 
the International Nuclear Materials and Production, were rated 
in the top 5 percent of government programs throughout the 
government and were the highest two programs in the Department.
    We will be incorporating the PART assessment approach into 
all of our programs as part of our internal evaluation cycle 
starting with our work to prepare the fiscal 2005 budget this 
summer.
    In conclusion, Mr. Chairman, I am confident we are headed 
in the right direction. Our budget will support continuing our 
progress and protecting and certifying the nuclear deterrent, 
reducing global danger of proliferation and enhancing the 
capabilities of the U.S. Nuclear Navy. Our budget will enable 
to us continue to maintain safety and security of our people, 
information, materials and infrastructure; and, above all, it 
will help us meet the national security needs of the United 
States for the coming years.
    This concludes my prepared statement, Mr. Chairman and my 
colleagues; and I would be pleased to answer your questions.
    Mr. Hobson. Thank you, Mr. Ambassador.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Hobson. I am going to do something a little out of 
order. I am going to ask three areas of questioning because I 
may or may not have another closed hearing with another 
Committee I sit on going on.
    But I want to send some messages--if the Committee would 
indulge me for a minute, I will go first. Usually, I like to 
let everybody else go first.

                          CONTRACT COMPETITION

    But I want to talk about contract competition. Ambassador, 
can you explain why the Department has been able to complete 
the contracts for the Sandia lab, for all three nuclear weapons 
plants and for the Nevada test site but has not done so for the 
Los Alamos and Lawrence Livermore laboratory contracts Are 
there some unique requirements at those two labs not present at 
the other facilities which precludes competition?
    I have a series of other questions I will ask for the 
record later, but secondly on that, is there any reason that 
the Naval Reactor's approach to laboratory competition cannot 
be applied to the contracts for Los Alamos and the Lawrence 
Livermore labs?
    Ambassador Brooks. The traditional answer--I want to make 
sure that--the Secretary has directed me to make 
recommendations in this area mindful, among other things, of 
your views and the views of others on the importantance of 
competition. The traditional answer for federally funded 
research and development facilities like the national labs has 
been that long-term stability is a benefit and that associated 
with----
    Mr. Hobson. Sixty years?
    Ambassador Brooks. The traditional approach has been that 
the benefits of the association over time for the science 
laboratories, the weapons physics laboratories, outweigh the 
benefits of competition. That is a judgment this Administration 
has not yet had the opportunity to make, because the contract 
was extended in the waning days of the last Administration. If 
the Secretary does not decide to do something earlier, we will 
be faced with that decision next year; and it will be the 
Secretary's decision. We understand the importance of the 
message you are sending.
    Mr. Hobson. Let me talk specifics. I am going to run 
through three things real fast here.

                              PENSION PLAN

    We understand that the NNSA recommended and the Secretary 
approved an increase in the pension benefits for Sandia workers 
to bring them into parity with the pension benefits offered by 
the University of California for its employees at the Los 
Alamos and Lawrence Livermore labs. This increase was claimed 
to be essential for recruitment and retention of employees at 
Sandia. If this reasoning was sound for Sandia, why aren't you 
seeking to increase the pension benefits for Kansas City and 
Pantex and Y-12 and for the Nevada Test Site? Have you 
considered that the University of California and Sandia pension 
plans are significantly more generous than those available to 
your Federal workers and won't this tend to encourage your 
talent of Federal employees to leave the government and go to 
work for DOE contractors? And can you afford to lose that 
talent?
    Lastly, you know I am not sure that the facts follows out 
and I don't know why this was done, but you have two 
laboratories under Naval Reactors, Knolls atomic power lab and 
the Bettis atomic power lab. I assume that the pension plan for 
your civilian contract workforce at these labs is not as 
generous as those offered by the University of California. Are 
you experiencing any recruitment or retention problems because 
of your current pension benefits and do you feel the need to 
increase those pension benefits so that your contract employees 
are on a par with Los Alamos? It looks to me like you guys have 
built a real problem.
    Ambassador Brooks. We made the decision on the Sandia 
pension plan because we see the three weapons laboratories as 
comparable and competing for the same, extremely rare pool of 
scientific talent. We don't see that the rest of the nuclear 
weapons complex is competing for that same talent; and, 
therefore, we don't see that it is automatically the case that 
we need to offer it. Remember, pension plans are obviously a 
subject of negotiation between the people who runthe sites.
    Mr. Hobson. Let me tell you the problem. I don't think most 
of the universities in this country--States are having real 
trouble funding everything. It is going on at my State now. I 
am sure Tennessee has problems. I am sure Texas does. I am sure 
Illinois does. And these darn universities go around having 
these fat programs. I mean, we are supposed to have a big fat 
program as Congressmen, and I can tell you these programs are--
I will use a better word--a heck of a lot fatter than any we 
have. And I just lost 30 pounds, so I can speak with a somewhat 
of authority on that.
    It is very discouraging to all of us and it is discouraging 
to other employees to see these universities continue down 
these roads when we are all facing problems. I have never seen 
a university that is run by the numbers anywhere, and I have 
been on the board of about four of them. I got off because I 
read their financial statements, and there is no attempt to 
control costs. It is just pass it on and raise the tuition, go 
to the State and ask for more money and continue on with the 
same problems down the road.
    I have a lot of problems because these things--you are 
talking about an acorn scenario with somebody. These grow 
really fast into big oak trees that you can never touch. If 
these were really in a competitive situation in the world, this 
wouldn't happen. But, anyway, I am really upset about this.
    I want to talk to you about something else, and then I will 
stop and let other people question.

                            SUPER COMPUTING

    The Director of DOE's Office of Science and a number of 
other experts are very concerned about recent Japanese advances 
in supercomputing and are recommending that we rethink our 
approach to developing advanced supercomputers in the U.S. Can 
you explain why the computer experts at NNSA seems so much less 
concerned and why the fiscal year 2004 budget request does not 
acknowledge that the world of supercomputing has changed around 
us?
    I understand that one of the key advances of the Japanese 
Earth Simulator is its increased efficiency, allowing it to 
reach sustained operating speeds that are 50 percent of the 
peak computing speed. The ASCI program is acquiring a 30 
teraflops machine at Los Alamos this fiscal year, the Red Storm 
machine at Sandia operating at 40 teraflops peak speed, and thn 
Lawrence Livermore. What will be the estimated sustained 
operating pace of these three ASCI operating machines?
    They tell me we missed the boat. We spent all this money 
using this system, the basic business system that IBM has; and 
we bypassed or allowed this to go away. Now we have to go over, 
if we want to do some of this stuff, let the Japanese see 
everything we are doing, and we don't have this capability. Now 
if they are wrong, you guys need to tell us. Then you got to 
fight between you guys here.
    AMB. Brooks. I think they are wrong for us. Because our 
program is designed for unique needs.
    We are not just depending on IBM, obviously.
    We will substantially outpace the Japanese earth simulator 
both in performance and particularly in cost.
    How you choose to evaluate cost effectiveness of computers 
I think is different. People will do it differently. But if you 
look at the cost of that machine as a function of its operating 
capacity and you look at the cost of the machines being 
produced under ASCI, I think that there is no comparison and no 
comparison in a favorable way.
    I will be happy to provide a more detailed technical answer 
for the record, if that is acceptable, unless Dr. Beckner would 
like to add something.
    Dr. Beckner. I think this is a very complex answer, if we 
aren't careful here, because the machine in Japan really is 
designed to work on a rather specific kind of problem. The 
machines that we have to have are designed and built to operate 
on a much broader range of problems. So the architecture that 
you use in the two cases is really quite different.
    We have looked very carefully at the architecture that is 
in the Japanese machine. In fact, it was the architecture 
weused prior to about 10 years ago. We went away from that because it 
was not broad enough in its application. We continue to look at it. It 
is not as if we are rejecting it.
    I think we need to give you a more detailed answer, 
because, otherwise, we say we are better and they say they are 
better.
    Mr. Hobson. I am not talking about the Japanese now that 
say they are better, I am talking about some of our people who 
say that they are certain capabilities that we can't do as 
efficiently. For example, our machines are about 5 percent 
efficient. Their machine, when they turned it on, was 50 
percent efficient at doing certain types of calculations and 
advanced calculations. And our people frankly want to leapfrog 
the Japanese machine.
    Now, admittedly you don't build 25 of these, hopefully. But 
you do--if you are going to keep the preeminence of the 
computer capability for the scientific world as well as your 
world, which is scientific also, I need to know, there seems to 
be a division of thinking here. Before we spend additional 
money and before you spend additional money, they spend 
additional money, I think we have to have some understanding or 
at least I would like a better understanding and I think the 
committee members deserve to know what we are doing here.
    Ambassador Brooks. Yes, sir, Mr. Chairman. We will get you 
that.
    Mr. Hobson. Because there is a big difference from what the 
guy told me from the scientific community, who is the guy who 
was the head of the----
    Ambassador Brooks. Dr. Ray Orbach.
    Mr. Hobson. Right. There is a big disconnect.
    Ambassador Brooks. Let me make one point. Dr. Orbach's 
responsibility is to advance the state of computing. Our 
responsibility is to devise specific tools that will let us 
solve specific stockpile stewardship problems. In doing that, 
we do advance the state of computing, obviously, but we are 
focused on being able to solve a particular class of problems. 
So this is not--at this stage of computing, this is not the 
all-purpose machine that will do everything. So it may be 
entirely possible for us both to be right because we are trying 
to solve different problems.
    Let me get you a more complete technical answer for the 
record, if I may.
    Mr. Hobson. Thank you very much.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT

    Mr. Hobson. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman; and, gentlemen, 
thank you very much for being here today.
    Ambassador Brooks, before I start, I want to thank you very 
much for your efforts during this past year. The Subcommittee 
expressed a lot of concerns about budgeting for weapons systems 
and also a great deal of concern over the last couple of years 
about lab-directed research. I do think that you acted with 
good intentions and effectiveness in taking great strides last 
year, and I want you to know I appreciate that very much.
    Ambassador Brooks. Thank you, sir.

                          WARHEAD INVENTORIES

    Mr. Visclosky. What I would like to do is ask about the 
nuclear weapon inventory and also talk about the W80 warheads 
if I could. The long and the short I guess of the question is 
that the President and the Russians have an agreement to reduce 
deployed warheads from about 6,000 today to about 2,000 in 
2012.
    I recognize that I am asking you to project out quite a 
ways, and to be honest with you I don't have much faith in 
budget projections past about 12 months, but here we are 
talking about something different than that, but we are talking 
about a lot of money. I guess the question I have is, is there 
an estimate as to how many weapons are going to be in the 
inventory by 2012 if we are going to have about 2,000 warheads 
deployed relative to the 6,000 in the field today?
    Ambassador Brooks. The short answer is no.
    Let me give you a slightly more nuanced answer. Almost 
certainly some number of the existing weapons are going to be 
identified by the Department of Defense for retirement. That is 
part of the Department of Defense's plans for implementing the 
results of the Nuclear Posture Review. With the exception of 
the W62 warheads, however, we have not yet--the Department of 
Defense has not yet identified which of those weapons will be 
retired.
    It won't be all of them, because the concept underlying the 
Nuclear Posture Review is that you can go to these really, by 
historical terms, quite low levels now but that you need to 
have what is called a responsive capability. We haven't 
quantified that. So there will be the operationally deployed 
weapons, there will be some weapons that are deliberately 
maintained as responsive weapons, and some of the remaining 
weapons will almost--a fairly large number will almost 
certainly be retired.
    But that is not our decision to make. It is the Department 
of Defense's decision; and the Department of Defense hasn't 
made it yet, although there is a large-scale implementation 
effort for the Nuclear Posture Review going on which I would 
expect will start making those decisions soon. But I don't want 
to speak for another Department, sir.
    Mr. Visclosky. I wouldn't hold you to it, but do you have 
any estimate when ``soon'' occurs?
    Ambassador Brooks. No, sir. Without meaning to sound flip, 
the policy folks in the Department of Defense have been 
consumed, I think with other situations; and so I am not sure 
that this has been the highest thing on their plate. I just 
don't know. So I can find out and get you an answer for the 
record, sir.

                          W80 LIFE EXTENSIONS

    Mr. .Visclosky. I think you understand where I am going 
with this is the cost to DOE as far as the modernization 
program. I want to talk about the W80s in a second. But my 
concern here is, looking out at least five years, is again 
there is almost no perceptible change either on the active or 
inactive list; and the costs keep escalating. You have an 11 
percent increase in the budget in this account this year.
    Ambassador Brooks. That is overall. The bulk of that is 
dominated by the increase in nonproliferation money.
    Mr. Visclosky. I guess the question is, what is the theory 
as far as how far modernization goes and for which warheads?
    Ambassador Brooks. Well, we have plans for service life 
extension for the W87, the W76, the W80 and the B61. I think 
that you have to step back and say, where are we going in the 
long term? Our planning must, of course, be driven by the 
Nuclear Posture Review and the requirements of the Department 
of Defense. But I see absolutely nothing that makes it likely 
that we are going to go fundamentally below the level of the 
Treaty of Moscow soon.
    We have always taken the view that it is best to have 
multiple capabilities. So we have both the W78 and the W87 ICBM 
warheads. We have both the W76 and the W88 SLBM warheads. We 
have both the B61 and the B83 gravity bombs. We have the W80 
cruise missile warheads, and we are retaining the W84 warheads 
in an inactive mode as a long-term hedge against needing a new 
cruise missile warhead. So I think you are going to see the 
same numbers of types of warheads, and that is a decision that 
has historically been influenced by the desire not to have all 
your eggs in one basket. I think you are going to see a 
reduction in the deployed weapons.
    However, I don't want to mislead. If tomorrow the 
Department of Defense said we should cut the number of weapons 
from 10,000 to 5,000, I would not be up here asking for half as 
much money. A lot of these capabilities are based on the number 
of designs you have, not the number of specific warheads. Some 
are. The tritium, for example, we will spend less money--I 
predict, on tritium over the next 10 years than the current 
projections suggest because we will reduce some of these 
warheads.
    Mr. Visclosky. If I could, one more question along the same 
line. In talking about the W80 and talking about money, the W80 
Selected Acquisition Report to Congress shows that DOE plans to 
spend about * * * W80 warheads.
    Looking ahead to any potential reduction, if you looked at 
some of the systems, whether it be the Trident Minuteman 
cruiser, if you did a proportionality reduction, which I assume 
will not happen, at best you are talking a lot fewer cruisers. 
In the budget 2 years ago, NNSA testified that the first block 
of W80 refurbishments would be at a cost of $771 million. Last 
year, it was $981 million; and this year it is $1.4 billion. 
Then in March of this year, an IG report from the Department of 
Energy on the W80 Life Extension Program states that our audit 
discloses that it is unlikely that NNSA's--we will have to come 
up with another acronym--W80 refurbishment project will meet 
scope, schedule and cost milestones. DOE labs canceled and 
delayed testing weapon completion and support facility 
renovation activities without notifying NNSA.
    Mr. Visclosky. I am very worried about the budget 
implications, particularly on a warhead, if you look at the 
system it is on and the delivery mechanisms and the ages and 
the theory that there is going to be a reduction, that we are 
going to be spending a lot of money.
    Ambassador Brooks. There are several reasons for the 
situation you have described. Some of them shouldn't worry you. 
I mean, they are based on policy judgments you may disagree 
with, but we understand them. Some of them perhaps should. Let 
me try and walk through it.
    Let's talk about the cost first. Part of cost growth is 
real, part of it is bookkeeping. The first two numbers $771 
million and $981 million, that is real additional money. And 
that is because of a rebaselining associated with shifting the 
W-80 responsibility from Los Alamos to Livermore.
    And in transferring that technology and that knowledge and 
that responsibility we made the decision; and the decision was 
we wanted two weapons design labs to remain in business over 
the long term, and that by happenstance, a disproportionate 
number of the designs that we were retaining were Los Alamos 
designs.
    So we consciously made the decision to pay the additional 
cost, rebaselining the program at Livermore, because the way 
you keep weapons design capability is to work on real weapons. 
so that is a real increase made for a policy reason.
    The apparent increase between $981 million and $1.4 billion 
whatever is a bookkeeping increase, because it is the 
difference between direct and indirect costs, direct and--the 
direct costs are the $981 million. The others are the more 
accurate, full-cost accounting that this Committee has urged up 
to adopt. So that is----
    Mr. Visclosky. That is because you are accounting by 
weapons system now, so we have a more accurate reflection.
    Ambassador Brooks. That is right. So it doesn't mean the 
taxpayer is going to spend any more money, it means that we are 
making it more visible. Then your second question of your 
concern is this IG report that has just been issued.
    Generally, we agree with the IG's conclusions, that there 
are some risks to the schedule. I don't think the kind of very 
large numbers we are talking about is the magnitude of the 
risk.
    Third, the question is, is any of this worthwhile? Are 
cruise missiles going to go away? I am constrained by the plans 
of the Department of Defense, and nothing that I have seen from 
the Department of Defense suggests to me that we are going to 
get out of the nuclear armed cruise missile business. That is 
why we have a W-80 life extension program.
    So, I--yes, those are my three answers to the situation 
that you described, sir.
    Mr. Visclosky. Which again points out the problem as far as 
DOD's policy driving a lot of your costs, because even if they 
don't get out of the business, the question is, numerically, 
how much do they stay in business?
    But the Chairman has been very generous with his time. We 
have got a lot of Members.
    Mr. Wamp [presiding]. Mr. Simpson, you are next. However, 
Mr. Frelinghuysen does have a very important hearing. In case 
you have any requests of the D.C. appropriations bill, you 
might consider yielding to him.
    Mr. Frelinghuysen. Thank you, Mr. Chairman. Thank you, Mr. 
Simpson. I just want to talk for a few minutes about the real 
potential that we can have more potential members of a nuclear 
blackmail club.

                         NUCLEAR PROLIFERATION

    We are focusing on North Korea, and it still is a mystery 
to me, having served on this Committee, and we worked in 
support of the last Administration on the deal with North Korea 
that we could have signed that agreement and been totally 
blind-sided.
    I have never read a satisfactory explanation. I am not sure 
you are here to give one. But we have, obviously, the Indians 
and Pakistanis that have a nuclear potential. We havecemented 
relations with the Russians in terms of taking a look at their 
curtailing and controlling their nuclear materials.
    What is happening relative to the Peoples Republic of 
China--and will you make some comments on the North Korea 
situation? And, for that matter, the other country that has 
sort of fallen off the radar screen, but surely not off yours, 
Iran. Peoples Republic of China, North Korea and Iran.
    Ambassador Brooks. Let me take them in reverse order and 
start with Iran, because Secretary Abraham has been 
particularly active there. There is, I believe, no question 
that the Iranians are seeking to ultimately have at least the 
option to develop nuclear weapons. The scale of the nuclear 
program that they have undertaken makes no sense in a country 
that is sitting on as much oil as they are and has as many 
other economic needs. So we believe that, at a minimum, they 
are seeking to have a future capability.
    What are we doing about it? The most near-term issue has 
been the reactor at Bushehr. Bushehr is a power-generating 
reactor being built with Russian assistance under an agreement 
from the Russians that they would provide the fuel and that the 
fuel would be taken back.
    If that agreement were to come to pass, I am absolutely 
convinced that the Russians are serious on it, the 
proliferation consequences would be lessened, because the 
reason you worry about commercial reactors is that the spent 
fuel can be reprocessed to provide plutonium for weapons. So 
the spent fuel goes back to Russia.
    The Secretary has received personal assurances from the 
Minister of Atomic Energy in Russia that, in fact, that will 
happen. It has recently--it hasn't been revealed to us, but it 
has recently been revealed publicly that the Iranians are also 
involved in a very large-scale uranium enrichment process that 
is farther along than many people expected.
    The risk there is that once Bushehr is in operation, you no 
longer have to have Russian fuel, and therefore you no longer 
have the right for the Russians to take it back. We have 
pointed this out to the Russians as recently as last week in a 
meeting that Secretary Abraham had with his counterpart, and 
urged the Russian Government to reconsider their support for 
Bushehr.
    We also have been working with the International Atomic 
Energy Agency (IAEA). We expect that the Iranians who are not, 
in my view--in my view, not the view of the U.S. Government or 
International Atomic Energy Agency; I don't think the 
government has formed a view--they are not in compliance with 
their existing safeguards agreement. They should have declared 
that facility earlier.
    But the IAEA is working, trying to enhance safeguards. I 
think that the Iranian program is not a near-term problem.
    Mr. Wamp. Dr. Simpson.
    Mr. Simpson. Thank you, Ambassador. And, Admiral, it is 
good to see you again.
    Let me talk, if I can, and ask a few questions about the 
Naval Reactors Program in Idaho. It has been a great program in 
Idaho, and you have great men and women working out there; ever 
since Admiral Rickover discovered the Idaho desert, ithas been 
an important part of our state.
    When I was growing up, very young in Idaho, I used to 
wonder why all of these people were working around with Navy 
uniforms on. I knew that there wasn't a large body of water 
around in that desert, but I found out later on.
    Does the DOE budget request contain sufficient funds to 
stay on track to meet all of the milestones affecting the Naval 
Reactors under the Idaho settlement agreement?
    Admiral Bowman. Congressman Simpson, it does. We have been 
fairly meticulous over the years in asking for exactly what we 
need and not a penny more, but not a penny less. And we feel 
that without question, to meet the Idaho agreement, the budget 
is appropriate.
    Mr. Simpson. When is all of the spent Navy reactor fuel at 
Idaho to be moved to dry storage? Do you know the date?
    Admiral Bowman. We have begun that process, and have, in 
fact, proven the concept that will be used in a production 
line. Just in this last month we moved the first set of fuel 
from wet storage to dry storage. The final and date is not yet 
specified.
    Of course, in the agreement, we have agreed by 2035 to be 
completely out of Idaho and to be among the first of the 
shipments to leave Idaho. When the last morsel of fuel will be 
dry-stored is not yet determined.
    Mr. Simpson. Okay. Are you--do you have any concern about 
the transfer of landlord responsibilities from EM in the 
Department of Energy to NE at the site?
    Admiral Bowman. I have a minor concern about the transfer 
of that responsibility. I believe that from an administrative 
point of view, it will be transparent to me. But, currently, EM 
actually owns it now and operates that site.
    The radioactive material waste complex is what I am 
referring to. And they are allowed to plan and budget for the 
operation of that facility. If, in the transfer, the cost 
shifts to the customer, and I am one of the customers, then I 
will have to add that additional funding to my request, and I 
think that is the only concern that I have in the potential 
transfer.
    Mr. Simpson. Okay. We will keep an eye on that as that 
occurs.
    As you know, the Naval Reactors program has been so 
successful because you have a very focused mission, and you 
concentrate on that focused mission very well. In fact, as I 
was reading your literature here, that is one of the things you 
emphasized, that it is a focused mission to provide militarily 
effective nuclear propulsion plants and ensure their safe, 
reliable and long-lived operation.
    As you know, NASA is looking at a new project for nuclear-
powered space craft, Project Prometheus, and they, as I 
understand it, may be asking for the expertise of the Naval 
Reactors program. Do you think that that will expand your 
function and maybe undercut your mission?
    Admiral Bowman. Well, I won't let it undercut the primary 
mission of delivering safe, effective nuclear-powered warships 
to the Navy. You are right, though, that the NASA administrator 
and the NASA hierarchy, I believe, would like for Naval 
Reactors to assume the responsibility for developing this 
reactor for Prometheus, and for the subsequent missions. We are 
working that out even as we speak.
    I would insist that we would continue to do business for 
the Navy exactly as we have. And, in fact, I believe that if we 
were to take on this added mission of the space exploration and 
the space reactor, that there would be spin-offs that would be 
very agreeable to the Navy's requirements and would be dual-
use, available for us to spin into Navy situations.
    Mr. Simpson Thank you, Admiral.
    Ambassador, one other question I wanted to ask is in the 
budget request, you requested $6 million for the 
nonproliferation oversight responsibilities, I guess it is, for 
the nuclear compliance verification. You have requested $6 
million.
    Given the situation of the change that has occurred that we 
just talked about vis-a-vis Iran and, potentially, Iraq, North 
Korea, is $6 million really enough?
    Ambassador Brooks. Let me answer the question generally, 
because I am drawing a blank on the specific line item. And 
while I answer the question generally, I will let Mr. Baker 
think about the specific line item.
    With regard to North Korea, in fact, what we were planning 
to do--first, we have been developing a so-called ``tool kit'' 
that would aid the International Atomic Energy Agency in the 
full and complete accounting of past plutonium production. The 
money in the budget was enough to do that. Whether or not that 
will ever come about depends on whether you believe we will get 
the IAEA back into North Korea.
    Similarly, there was money in the budget, although it did 
not provide a direct line item, for us to maintain the safety 
of the fuel stored at Yongbyon, and whether that money will 
actually be used for that purpose depends on whether or not we 
get our people back in there to maintain it, because they 
reversed the reprocessing decision.
    So I think that the likelihood is the other way: It is not 
a question of do I need more, but because these are cooperative 
efforts that depend on the access of the host country, will I 
have the access to use what I have asked for? My view is that 
we should preserve that option, because it is our hope that we 
are going to resolve the situation diplomatically. I don't now 
see a need for an increase in that area.
    Mr. Baker. The Ambassador is right. This tool kit was being 
built for North Korea so that we could find out how much 
plutonium they had produced. We thought, after the problem of 
North Korea, it is not just for North Korea; it is for anyone 
in noncompliance.
    So the question came up, if we had a problem with North 
Korea, do we still need it? The answer is, yes, to see if other 
countries are in noncompliance. And the money, the $6 million, 
is enough this year. The total cost would be something like $24 
million for this tool kit, overall.
    The State Department still requested us to build this tool 
kit. So it is one that we can use throughout the world to find 
out whether countries are noncompliant with the NPT.
    Ambassador Brooks. But we do need to stress, Congressman, 
that our efforts are primarily in support of cooperative 
monitoring.
    Now, as a separate monitor within this budget, there is a 
little over $200 million for research and development. And much 
of that is, in essence, for intelligence tools to help find 
out, without the cooperation of a country, whether or not they 
are in compliance. But the specific kinds of programs Mr. Baker 
was describing are for situations where the United States or 
the international organizations such as the IAEA has been given 
access.
    Mr. Pastor. I probably should be at Homeland Security 
asking this question, but since I won't have an opportunity to 
do it there, I will do it here.
    The probability of a dirty bomb in the United States, and 
then, second to that--well, along with that response, our 
security effectiveness, to be able to even detect one with 
high--is there a possibility?
    Ambassador Brooks. I spent last week at a conference in 
Vienna on dirty bombs that was the result of an initiative of 
Secretary Abraham and 124 countries. And our message there was 
to try and strike a balance between prudence and overreaction, 
and try and focus on the relatively limited number of 
materials, such as Cesium 137, that actually would be quite 
suitable for such a weapon.
    I think right now, that this is a risk, like many others, 
that needs to be paid attention to. I think it would be a 
mistake to panic. It remains almost certainly true that if a 
dirty bomb goes off anywhere in the United States, the people 
who are killed are going to be people killed by the explosion.
    Some are using the term ``weapons of mass disruption'' for 
these things. What is going to be the economic impact is going 
to be, you know, large-scale contamination which, even if it 
isn't really life threatening, there is a public tendency not 
to distinguish very much between small amounts of radiation and 
large amounts of radiation. That would be very disruptive, so I 
think that it is worth paying attention to.
    What we are doing? First, we--the Department of Energy 
actually, not primarily my part, is working with the NRC on an 
orphan source program. What that means is, these radioactive 
sources that no longer have a use, to try and recover them and 
store them and ultimately find a path to dispose of them.
    With regard to bringing in radioactive material from 
outside the country, we are supporting two efforts under the 
Department of Homeland Security. One is, we--under Mr. Baker's 
supervision, we have been supporting them in primarily the 
technical evaluation of deployment of portals to detect 
radioactive material coming into the United States through land 
crossings.
    Secondly, because you tend in this country to want to have 
a lot of throughput at ports, we have been working with the 
Customs Service on a program we are calling Mega Ports; and 
that idea there is that we would deploy the ability at large--
the large ports, ultimately, ideally at every port in the 
world, but start with the so-called Mega Ports, at classified 
level, only because of the sensitivity of the government 
involved.
    So that is what we are doing.
    I want to stress the detection of a material suitable for a 
dirty bomb is actually the easier part of the problem, because 
this stuff is highly radioactive. So you have some physical 
thing to detect. The much more difficult part of the problem is 
the detection of material for an actual nuclear device because 
the physical signature is less.
    We are spending a good deal of time and money, and my 
understanding is, the new Department of Homeland Security has 
spent a good deal of time and money in trying to improve our 
ability to detect that material. But the laws of physics do not 
help us particularly in this area.
    Mr. Pastor. Thank you very much.
    Thank you, Mr. Chairman.

                             SITE SECURITY

    Mr. Wamp. Thank you all for being here.
    Mr. Ambassador, you said in your testimony that your 2004 
budget request increases spending for security technology and 
reduces your dependence on guard force staffing.
    Ambassador Brooks. ``Will ultimately reduce'' is what I 
meant to say.
    Mr. Wamp. Well, the old guns, gates, and guards paradigm is 
expensive and is maybe not as efficient as it should be orcan 
be in the era that we are in. What are you doing in the short term to 
try to transition into a more technology-oriented security capability 
as opposed to people?
    Ambassador Brooks. I have to tell you, sir, that in the 
short term, we are trying to get a handle around it for the 
long term. I don't, at the moment, have any major initiatives 
that I expect are going to reduce the need for guard forces 
over the coming year. Indeed, we are working in the opposite 
direction.
    We are trying to improve the efficiency of the process 
whereby we hire guards and improve the speed with which we go 
through the security clearance process, so that we can get a 
handle on what is, right now, a potentially serious problem 
with excessive overtime among guards. Guards like some overtime 
because it is a way that they make money, but we have got more 
than they like right now.
    Dr. Beckner. If I could, I think we do have two examples 
where we are moving in that direction. The facility that is 
presently under design for Y-12, called the Highly-Enriched 
Uranium Materials Storage Facility, is being designed in such 
as way as to minimize the requirements for guards. Clearly, 
that will take a very large amount of the highly enriched 
uranium in storage at Y-12 into that one facility and has the 
potential then to release guards from other areas where they 
are presently having to protect material that is distributed 
more widely at that plant.
    The second project at Los Alamos, we have the move of 
material from an area there called TA-18, where there is a 
large amount of material required in a criticality facility 
there, which we are in the process of planning to move to the 
Nevada Test Site--again, into an area out there called the 
Device Assembly Facility, which has never been fully utilized, 
but is set up for a rather efficient arrangement for guarding 
uranium.
    Ambassador Brooks. Extremely efficient arrangement.
    Dr. Beckner. So we are spending capital money on those two 
projects, well over $100 million at Y-12. We will spend over 
$100 million moving the material from Los Alamos, but in the 
end, it will reduce the guard force.

                             SMALL BUSINESS

    Mr. Wamp. Without crossing over into micromanagement of 
NNSA, I would say there are military experts that have been in 
the private security industry in this country that could give 
you all really good advice on how to transition into a more 
technology-oriented security work force, as opposed to a 
reliance on the traditional systems.
    Ambassador Brooks. You were actually kind enough to put me 
in touch with one of those, who has been meeting with my 
people. I appreciated it.
    Mr. Wamp. Good. Thank you.
    Also, at the risk of not micromanaging your agency, we have 
a large IT contract that is up for potential recompetition in 
Oak Ridge; and we understand and embrace the need to recompete 
contracts and even to look to smaller businesses to do these 
contracts. But the NNSA BWXT the IT contract may possibly go to 
a sole-source company that is here in the D.C. area, and I just 
would like to say, that would be a big blow to East Tennessee, 
where there is a tremendous corporate citizenship involved 
here. And I would just ask you to give every consideration to 
personally involving yourself in this, to make sure that there 
is fair consideration of the effects on the region, not just a 
national trend towards opening up these contracts.
    Ambassador Brooks. Yes, sir.
    Let me make three points. First, I will look into it 
personally. Secondly, one of the things that we have always 
relished is this strong support we get from the East Tennessee 
region.
    But as you heard the Chairman suggest, there is good deal 
of interest in making sure that we are using competition 
effectively, and the President is committed to trying to focus 
on small business, and so is the Department. So we may be 
subject to some competing pressures here.
    Mr. Wamp. Yes, sir. You all actually, I think, across the 
board here at this panel, are doing a very good job. I have 
said before, and I will say again. I think, if NNSAwould not 
have been established, that this particular mission of the Department 
of Energy might have been spun off to DOD or DHS post-September the 
11th. But because we were going in the right direction, organized, and 
had a new emphasis in a planned way on security within the weapons 
complex, we were able to actually have the NNSA with the confidence of 
this committee and the country.
    You talked about facilities and infrastructure, where 
obviously, in my part of the world, Y-12 and across the weapons 
complex, we are very interested in this aging infrastructure. 
You scanned it in your testimony. But what are you looking at 
as you build the investment from budget year to budget year on 
improving these facilities across the country? What is your 
long-term goal, briefly?
    Ambassador Brooks. Sir, I would be happier to answer that 
one for the record, if I can.
    I can give you a very general answer, but it deserves a 
more specific answer. We hope by later in this decade to 
stabilize the backlog of deferred maintenance through the 
facilities and infrastructure recapitalization program.
    We hope to work off that backlog to where, around 2013, 
this program can cease, because it is intended to be a short-
term get-well program, and then to maintain the infrastructure 
through the Readiness in Technical Base and Facilities program 
that we always have.
    The problem we have, as you well know, is that it takes a 
very long time to turn over infrastructure. We are trying to 
now focus on both critical needs, stabilizing the backlog and 
then beginning the process of demolishing the relatively large 
number of unneeded facilities we have. But associating that 
with specific dollars, I would actually be more comfortable 
in----
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Wamp. In General, it appears that the EM portion of the 
Department of Energy has convinced OMB that they should be a 
high priority on accelerated cleanup.
    My question is, has NNSA convinced OMB to move the weapons 
activities related to upgrading our infrastructure and 
preparing ourselves for future threats and futures needs 
missions, is it back on the front burner again, in general?
    Ambassador Brooks. I think it is back on the front burner. 
I don't want to hide behind OMB, though, because these are 
largely decisions that we get to make.
    In the Nuclear Posture Review, the President approved 
something that is unique, at least in my experience. He, in 
signing onto the so-called New Triad, he put infrastructure in 
parallel importance with offensive weapons and defensive 
weapons.
    If you are in the business, that has sort of always been 
true, but to have that level of recognition is hugely 
important. OMB, in recognition of that, has been very 
supportive of our efforts. My predecessor and Dr. Beckner and I 
have all tried to make sure that we are striking the right 
balance to give this priority. We are all sensitive to the 
problems that we were in a few years ago, and we are all 
excited, digging out of them.
    So I think one can argue about particular decisions in any 
budget. But in broad terms I am completely convinced that we 
understand the importance of getting well on infrastructure. I 
don't see any falling away from that.
    Mr. Wamp. This is an aside, but I was very interested in 
hearing you talk about Vienna last week. I am on the Homeland 
Security Subcommittee of Appropriations, as well.
    In Vienna, was there any discussion around the events of a 
dirty bomb release, vaccinations around a dirty bomb release?
    Ambassador Brooks. We are focusing, because of the venue, 
entirely on radiological-type dirty bombs. For that, it is not 
clear to me that vaccination is really appropriate.
    There was a good deal of discussion about cleanup, about 
the importance of quickly mobilizing resources, about 
monitoring. There was some discussion about the medical 
consequences for individuals. That is largely understood; the 
problem there is scale. I mean, if you have--if you have one 
contaminated individual, we know how to take care of it. If you 
have 10,000 significantly contaminated individuals, that will 
overwhelm most medical treatment areas in most parts of the 
world. So there was a discussion of that.
    I would say the bulk of the discussion was much more on 
prevention and detection and organization rather than on 
consequence management.
    Mr. Wamp. Without chasing rabbits here, is there a 
continuing discussion among all of the respected nuclear 
agencies, NRC and others, about a standard as to what an 
acceptable level of radiation is in this country?
     I have been hammering this for 8 years. We still don't 
have it. We have been waiting. There is none, so as a result, 
we are spending a lot of money on nonsense, because we don't 
have a scientific factor of what is an acceptable amount. If we 
had a release, that would be a real problem, not determining 
what is clean.
    When can we go back to the way it was, in an area that 
happens to be, quote, ``contaminated''? Because we all have 
radiation; if we fly a lot, we have a lot of radiation. I know 
I accept that in my life. I have got a lot of radiation in my 
body. But by some standards, zero is the only acceptable 
measurement. That is crazy.
    So when are we going to do that? If we can't do it in an 
emergency like this, will it ever get done?
    Ambassador Brooks. I don't have a good answer for you.
    Mr. Wamp. It is a big problem, isn't it?
    Ambassador Brooks. Yes, sir. The occupational standards are 
fairly clear. I mean, the traditional standard is as low as 
reasonably attainable. And we understand the occupational 
issues. Naval Reactors has led the way in that area forever.
    The question of what you do after a radiological emergency, 
and when you declare victory, I think; there are neither 
national or international standards. There was some discussion 
in Vienna of the need for those. There was some discussion in 
Vienna of the need for those. There was some discussion in 
Vienna of the importance of categorization, that is, you 
can't--you don't want to run around and start putting guards 
around everybody's smoke detector.
    What is it that you are really worried about in 
radiological things? There are a number of schemes. They are 
all sensible. They aren't all exactly consistent. And one of 
the efforts to come out of Vienna was trying to deal with that 
end which--once again, I think we focused much more on the 
other things.
    Mr. Baker. Mr. Chairman, if you would like, there is an 
official report on the findings of this conference last week 
that we can send this committee.
    [The information follows:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT
    
    Mr. Wamp. Is there an executive summary?
    Mr. Baker. Yes. It takes 5 minutes to read it.
    Mr. Wamp. Admiral Bowman, you are still the pride of 
Chattanooga, Tennessee, even though I didn't hear your voice 
today. We both are from the same place in the world.
    Mr. Visclosky, do you have a follow-up?
    Mr. Visclosky. Well, with Admiral Bowman being from 
Tennessee, I have some questions for him.
    On the new core, Admiral, would that in any way necessitate 
a reconfiguration or redesign of the Virginia class itself?
    Admiral Bowman. Absolutely not.
    Mr. Visclosky. And what is the primary motivation? Is it 
performance or is it cost, or things of--a combination of many 
of those?
    Admiral Bowman. It is a combination of several things. It 
is an interesting story. We were--we knew all along that we 
were going to have to redesign the Virginia core when we 
shifted from our traditional fuel source of 97 percent enriched 
uranium 235 over to the decommissioned bomb material, or 
weapons material, at 93 percent. So we knew we had a redesign 
in the offing.
    Along came 9/11. The demand signal from the combatant 
commanders, those officers that we used to call commanders in 
chief of the regional territories around the world--CENTCOM and 
the European Command and the Pacific Command. The demand signal 
for these nuclear powered vessels went up by 30 percent on 9/
12/2001.
    We didn't go up by 30 percent in our inventory of these 
ships, obviously. So, to make ends meet, what we have been 
having to do for the last year and a half is operate these 
ships much harder than we had planned originally. First, where 
we had originally planned to achieve a 33-year lifetime of the 
reactor cores of Virginia and the last half of the Los Angeles 
class, we had based that assumption on moving from point A to 
point B at 16 knots.
    Today, in order to try to close this gap between what is 
required and what is available, we are now moving at 20 knots. 
That takes energy out of the core.
    Likewise, when the ships are deployed----
    Mr. Visclosky. Is that classified?
    Admiral Bowman. Those numbers are not classified, no, sir.
    Second, while on deployment, the baseline to achieve 33 
years of core life, assumed that our submarines would be in 
port about 35 percent of the time while they were deployed. 
That is a 65 percent, put the other way, operating tempo.
    Again, today, to make ends meet, these submarines are at 
sea virtually the entire time that they are out there; 80 
percent is about the average operational tempo that we are 
seeing, instead of the 65 percent.
    Mr. Visclosky. Eighty percent?
    Admiral Bowman. Yes, sir, when they are deployed. Thethird 
factor that goes into the same pot I am describing--using the reactor 
cores at a much higher rate than we had planned for, the third thing 
that goes into that is that the submarines were originally assumed to 
be in port for about three times the length of time that they were 
deployed, called a 3.0 turnaround ratio with about 50 percent of the 
total time being * * *. So a particular submarine deployment, SSN 
deployment of 6 months, we planned on having that ship back in port 
doing maintenance and training for 18 months before it deployed again. 
Today, that number is down and for some ships has approached a 2.0 
turnaround ratio and some ships are operating at higher than 50 percent 
at-sea times in the aggregate.
    Those three factors mean that if we were to continue at 
that pace with a brand-new Virginia class--as you know, not 
even in the water yet--but the very first of the Virginia 
class, the USS Virginia, would last much less, maybe 29 years 
or so, at that rate of expenditure of the reactor core.
    We therefore needed to do something to compensate, and that 
something is to add back into the core about 30 percent more 
energy. Through special investigations that we have done, and 
now I am getting into some classified material again----
    Mr. Visclosky. But primarily, then, it would not be cost 
driven; it would increase your ability to operate at a lower 
cost, it is performance driven and demand driven?
    Admiral Bowman. Performance and demand driven, I would 
start with because it would maintain the plan that we had in 
effect to allow these ships to last the 33 years that we had 
planned for. However, in the longer run the high energy core 
will preclude costly refuelings or very costly additional 
submarine acquisitions. So there definitely is a cost avoidance 

    Mr. Visclosky. How many Virginias will be put in the water 
before you are able to put the new cores in the subsequent 
ones?
    Admiral Bowman. Well, similar to what we saw with the Los 
Angeles class, almost half of the Virginias will either be in 
the water or at least be in the construction process. 
Specifically, six will be in the water.
    We are thinking we can put this core in a submarine around 
2010, and by 2010, we will have launched and be operating six 
of these Virginia class and be in the process of building eight 
others. So a total of 14 of the class of 30 of the class would 
have the first design core.
    Now, if we back off this rate, this operating tempo that I 
am talking about, this accelerated temp post-9/11, going after 
al-Qaeda, going after whoever else might be around the corner, 
if we back off and go back to where we were before, then good 
for that, too, because these--the second half of the Virginia 
class then would have about a 5-year additional lifetime that 
we could draw on, or we could operate those ships at a higher 
power level for the same lifetime.
    Mr. Visclosky. Any particular problem because you have a 
mixed fleet, because of the core difference?
    Admiral Bowman. No, sir. In fact, the protection systems 
and the safety systems will not be affected at all by this.
    Mr. Visclosky. Okay.
    Admiral Bowman. This really has to do with the--with the 
structure of the fuel material and the cladding material that 
allows us to achieve a much higher energy density in the 
reactor core than we have today. And as I said, the new design 
coincides with the new design requirement to incorporate 
uranium from * * *.
    It is very similar, sir, to what--the success that we had 
in going from the--remember when we launched Nautilus way back 
when, the first nuclear submarine?
    Mr. Visclosky. Vaguely. (Laughter.)
    Admiral Bowman. That core was good for 2 years. So it has 
been a long-time goal of this program to increase the energy 
density of those cores so that we don't have to replace them 
frequently, because it is very, very costly to do that.
    Mr. Visclosky. Thank you very much.
    It is another subject and another hearing, but I wish our 
rate was higher, building those submarines. But I will leave it 
at that.
    Admiral Bowman. I am with you.
    Mr. Visclosky. Ambassador and Dr. Beckner, in another 
answer, I think to the Chairman, you alluded to the movement of 
materials from Area 18, and $100 million. My understanding is, 
on October 30th, the annual report wassubmitted on the status 
of nuclear weapons safeguards and security.
    And you had mentioned the figure of $100 million. If I am 
correct, that same report also said that for that specific 
program, associated funding is being identified. Am I correct 
on that?
    Let me just--just from that report, relative to Sandia, and 
I will just give you a few more of these: The quote here is, 
``There is a program on the neutron generator recovery 
capability,'' you know, it is being identified as far as 
capability.
    I have another one, ``requires additional funding. We have 
another one at Y-12, pending additional funding, Savannah 
River; construction of new underground storage is awaiting 
funding.''
    And I guess my question, probably more so to the ambassador 
but also to Dr. Beckner. As far as the 2004 budget, are some of 
these requirements in areas where funding was being looked for 
in that October report? Have they been found?
    Ambassador Brooks. Many of those, and I would like to 
provide you a more complete item-by-item account for the 
record. But virtually all of the things in that report are 
looking for funding in the sense of, it is a multiyear program, 
and so I cannot say, I have all of the funding; or looking for 
funding in the sense of, it might be slightly more efficient to 
start it this year, but I have chosen to start it next year.
    The report to which you refer allows an unintended 
impression that there are near-term security problems that are 
being held up because of funding, and that is not correct. And 
I believe that the 2004 budget is probably--and let me explain 
why I say ``probably''--fully adequate in this regard.
    The wild card is--and it is also true with 2003, and we 
are, in fact, looking a little bit at some security issues 
within 2003; I don't know how long I am going to be in the 
accelerated security condition that was imposed on Monday--that 
costs me more money.
    I don't know whether we are going to see additional threats 
developed within the United States that will require us to go 
to even higher levels of security. And if, in fact, that does 
come about, then there could be problems.
    But in terms of the specific improvements in security that 
are mentioned in the report to which you refer, I have looked 
into them, I have gone through each of them, and I do not 
believe that there are any that should cause concern.
    I would like, however, to give you a more detailed summary 
of those.
    Mr. Visclosky. If you could that would be fine.
    I didn't mean to cut you off, Doctor.
    Dr. Beckner. No. I think that is probably what you need at 
this point.
    I would just add that, in the case of TA-18, we are still 
in the design phase of that facility. So we really are in the 
process of deciding what the features will be and what it will 
cost in the end. So we have an estimate for now which we have 
in the budget with no difficulty.
    Dr. Beckner. If it turns out that we are going to have to 
spend a good deal more than we presently estimate, then we will 
have to figure out how we are going to get that in the budget, 
too. But for now we have got it in there, and we will see what 
the design turns out to be.
    Mr. Visclosky. So the $100 million would be a projected----
    Dr. Beckner. It is actually a bit more than 100 already.
    Mr. Wamp. Thank you.
    Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman.
    Ambassador, there are several new nonproliferation 
initiatives, and they all sound good in principle, but we seem 
to lack any benchmarks to help us know where to get the most 
bang for the buck. How does the Department determine whether 
additional funds in the 2004 are best spent on securing more 
weapons grade materials at Russian military sites, taking their 
plutonium production reactors off line, securing material that 
might be used in the radiation dispersal device, buying 
additional highly enriched uranium, et cetera, et cetera, et 
cetera? How do you evaluate the relative risks there so that we 
can get our most bang for our buck when we are appropriating 
money for this?
    Ambassador Brooks. Well, first, obviously, because of the 
importance of the problem, we want to do this in the most 
effective way. It would be nice if I could tell you that there 
was a reproducible, quantitative approach that would let all of 
us look at the same set of figures and come to the same 
conclusion about where the last dollar ought to be spent. There 
isn't.
    When we were talking about radiological dispersal devices 
in the Vienna conference a moment ago, I pointed out that one 
of the major needs that came out of that conference was to find 
some agreed way to decide, even within that narrow subset of 
the problem, what is the most important. Is it the thing that 
is the most radioactive or the thing that is the most portable 
or the thing that is part of the least difficult to dismantle 
or the thing that is in the inherently more guarded facility? 
We have a methodology that we use in that area, so does 
everybody else, but none of them, even in that narrow area, are 
purely quantitative.
    What we have done is we have used what you might call 
qualitative risk analysis, and we have tried to focus our 
efforts and then validate them by looking at the 
recommendations of outside bodies in places where we think we 
can do the most good.
    As you get into the program, for example, for securing 
materials, there is a pretty methodology for trying to pick 
which sites to go to first. It is set forth in the material 
protection control and accounting strategic plan. There is not 
a good methodology for deciding whether a dollar is better 
spent there or better spent on plutonium production reactor 
shutdown.
    Mr. Simpson. Would you be willing to look at some of the 
outside research facilities or firms or think tanks to 
contract, develop that methodology?
    Ambassador Brooks. We have looked at a lot of them. We have 
looked at the 1995 National Academy of Science report. We have 
looked at the Secretary of Energy's reports, Baker Cutler 
report. We, of course, did participate in an administration 
review fairly massively in the first year of this 
administration of all nonproliferation programs. We are now 
reviewing the most recent report commissioned by the Nuclear 
Threat Initiative.
    The one thing that is common to all of these reports is 
that none of them have come up with a quantitative approach. 
What they come up with is the need to attack on a broad area, 
and I agree with the general feeling that the problem is large 
and so doing almost anything is a good thing.
    Our approach is a fairly straightforward approach to 
follow: Stop making the stuff, consolidate it where it exists, 
guard it once it is consolidated and eliminate it where you 
can. Of those guarding it is where we have tendedto put our 
priority, because that is the most immediate problem. But----
    And then I am comfortable with at that level of detail that 
we have a strategic view. But something that would rise to the 
level of budget justification, of saying this program is $14 
million and this other program is $8 million and here is the 
quantitative reason, why that is the right answer--I would 
welcome looking at any outside groups, but I have personally 
looked at the reports I have just mentioned, and they don't get 
me there.
    Mr. Simpson. But there are outside research firms and so 
forth that develop methodology for those types of things.
    Mr. Baker. I think we checked with probably the United 
States' best on something like this. Gave him the problem. He 
says, you can't solve it; you are solving it the best way. One 
way you could do a little bit is a Delphi analysis, using the 
Delphi method and getting some experts in.
    Ambassador Brooks. That is just more experts.
    Mr. Baker. That is more experts.
    Ambassador Brooks. Maybe better.
    Mr. Baker. I don't think there is anyone better. We would 
be more than happy to check with this person we checked with. 
He says the way you are doing it is the best way from a risk-
analysis bit. But we will be more than happy to check.
    Mr. Simpson. If you could check on that and get back with 
us within the next few weeks.
    Ambassador Brooks. I would be happy to, sir.
    I don't mean to sound like I am--I am spending an enormous 
amount of the taxpayers money on a hugely important problem, 
and there is nobody in this room more anxious than me to make 
sure I am spending it most effectively. Every day I wake up to 
another report by somebody who doesn't have to do it themselves 
about how we should be doing it faster. So I want to spend this 
in the most effective way. I just--right now, expert judgment 
appears to me to be better than the kind of quantitative 
methodology that some have advocated. But if I can find a 
quantitative methodology that works, I would love it. We will 
look.
    [The information follows:]

   Risk Analysis of NNSA's Defense Nuclear Nonproliferation Programs

    The application of a quantitative risk analysis discipline to the 
allocation of funding for the various programs within Defense Nuclear 
Nonproliferation is very difficult and complicated. In order to apply 
risk analysis to budget allocations in this area, we would have to 
quantify each threat, its likelihood of occurrence, and in addition 
provide mathematical estimates of the effectiveness of each of the 
mitigation means at our disposal. This sort of complete quantification 
is elusive. We have discussed this topic with Dr. Bernard R. Siskin, a 
nationally recognized expert on statistical analysis at the Center for 
Forensic Economic Studies. He indicates that we have no realistic means 
of quantifying the risks from terrorists or rogue nations obtaining 
weapons of mass destruction for an analytical method, given that the 
weighting of the adverse impacts is intangible and subjective.
    There are also practical considerations associated with the limits 
to international cooperation that effect any complete calculation, and 
the constraints imposed by both domestic and international agreements 
further complicate any strictly analytical treatment. NNSA has a clear 
qualitative understanding of the need to assure as rapid progress as is 
possible in the short term; effective risk reduction efforts associated 
with the protection and control of nuclear materials and weapons is a 
top priority. At that same time, it is difficult to overestimate the 
value of the long-term disposition programs that engender continued 
international cooperation and fulfill national commitments in counter-
proliferation efforts. What is clear is that the risks associated with 
the threats addressed by this program are very high, and our 
qualitative judgments, reassessed through years of in-country 
experience, have thus far served us well.

    Mr. Simpson. I appreciate it, sir. It is one of the things 
we have to look at, also, how are we spending the taxpayers' 
dollars and is there a better way to spend it. I appreciate 
working on it with you.
    Mr. Wamp. We are just a few minutes away from a vote on the 
House floor. Mr. Visclosky.
    Mr. Visclosky. I would associate myself with some of the 
questions by Chairman Hobson on the competition and also would 
associate myself with the observations on infrastructure 
investment of Mr. Wamp.
    Mr. Simpson. Wouldn't you like to associate yourself with 
my remarks?
    Mr. Wamp. We thank you very much for the time of each you 
and all of your professional staff that is with you today. 
Thank you very much.
    We will adjourn this hearing.
    [The questions and answers prepared for the record follow:]

GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Brooks, L. F.....................................................   127
Chu, Dr. Margaret................................................     1
Conway, J. T.....................................................   309
Roberson, J. H...................................................     1

                                  <all>

</pre></body></html>
